<html>
<title> - LESSONS FROM THE SOYUZ ROCKET FAILURE AND RETURN TO FLIGHT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 LESSONS FROM THE SOYUZ ROCKET FAILURE
                          AND RETURN TO FLIGHT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, OCTOBER 12, 2011

                               __________

                           Serial No. 112-43

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
70-589                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6007100f200315131408050c104e030f0d4e">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY



                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

               HON. STEVEN M. PALAZZO, Mississippi, Chair
F. JAMES SENSENBRENNER JR.,          GABRIELLE GIFFORDS, Arizona
    Wisconsin                        MARCIA L. FUDGE, Ohio
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
DANA ROHRABACHER, California         TERRI A. SEWELL, Alabama
FRANK D. LUCAS, Oklahoma             DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL, Texas                 
SANDY ADAMS, Florida                     
E. SCOTT RIGELL, Virginia                
MO BROOKS, Alabama                   EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas


                            C O N T E N T S

                      Wednesday, October 12, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chair, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     6
    Written Statement............................................     7

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     8

Statement by Representative Jerry F. Costello, Acting Ranking 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     9
    Written Statement............................................    10

                               Witnesses:

Mr. William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    11
    Written Statement............................................    13

Lieutenant General Thomas P. Stafford, USAF (Ret.), Chairman, 
  International Space Station Advisory Committee
    Oral Statement...............................................    20
    Written Statement............................................    22

Vice Admiral Joseph W. Dyer, USN (Ret.), Chairman, Aerospace 
  Safety Advisory
    Oral Statement...............................................    23
    Written Statement............................................    25

Discussion
  ...............................................................    28

  ...............................................................      

             Appendix 1: Answers to Post-Hearing Questions

Mr. William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, National 
  Aeronautics and Space Administration...........................    45

Lieutenant General Thomas P. Stafford, USAF (Ret.), Chairman, 
  International Space Station Advisory Committee.................    53

Vice Admiral Joseph W. Dyer, USN (Ret.), Chairman, Aerospace 
  Safety Advisory................................................

  ...............................................................    55

             Appendix 2: Additional Material for the Record

Summary of Findings of the ISS Advisory Committee and the 
  Aerospace Safety Advisory Panel................................    62


                     LESSONS FROM THE SOYUZ ROCKET
                      FAILURE AND RETURN TO FLIGHT

                              ----------                              


                      WEDNESDAY, OCTOBER 12, 2011

                  House of Representatives,
                    Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                     U.S. HOUSE OF REPRESENTATIVES

             The International Space Station: Lessons from

             the Soyuz Rocket Failure and Return to Flight

                      wednesday, october 12, 2011
                          2:00 p.m.--4:00 p.m.
                   2318 rayburn house office building

Introduction

    On August 24, 2011, a Russian Progress unmanned cargo vehicle 
carrying supplies to the International Space Station (ISS) crashed 
during launch from the Baikonur Space Center, Kazakhstan. The crash was 
caused by a malfunction of the Soyuz-U third stage booster, which is 
nearly identical to the Soyuz-FG booster used to launch astronaut crews 
in the Soyuz capsule to the ISS. As a result, use of the Soyuz launch 
vehicle for astronaut transportation to the ISS has been suspended 
until the Russian Federal Space Agency (Roscosmos) completes its 
failure investigation, and the international partners reach agreement 
on recertification and return-to-flight plans. Both NASA and Roscosmos 
would like to launch two unmanned Soyuz boosters before recertifying 
the system to fly humans.
    The launch failure highlights the risks of dependence on non-U.S. 
means for the strategically important capability of access to space. 
Since the termination of the Space Shuttle program, the Soyuz rocket 
with its Soyuz crew capsule is the only way to transport NASA and 
international partner crews to the ISS. The Soyuz crew capsule also 
serves as a lifeboat for ISS crews. Even with the shuttle (which could 
only stay at the ISS for about two weeks), ISS crews relied on the 
Soyuz capsule to serve as a lifeboat in the event of an emergency to 
return to Earth.
    The purpose of the hearing is to review the impacts of the Soyuz 
launch vehicle failure on the safe operation and utilization of the 
ISS, the current status of the Roscosmos' accident investigation, 
recertification and return-to-flight plans, and the implications of de-
crewing the ISS. The hearing will also examine the basis for NASA's 
decision to resume use of the Soyuz for transportation of its 
astronauts, including the advice it is receiving from external advisory 
bodies.

Witnesses

    <bullet>  Mr. William H. Gerstenmaier, Associate Administrator, 
Human Exploration and Operations Mission Directorate, National 
Aeronautics and Space Administration

    <bullet>  Lieutenant General Thomas P. Stafford, USAF (Ret.), 
Chairman, International Space Station Advisory Committee

    <bullet>  Vice Admiral Joseph W. Dyer, USN (Ret.), Chairman, 
Aerospace Safety Advisory Panel

Overarching Questions and Concerns

    <bullet>  What is the status of Roscosmos' Soyuz launch vehicle 
failure investigations, and what are the milestones for the Soyuz 
return-to-flight activities?

    <bullet>  How much insight and influence do NASA and the Aerospace 
Safety Advisory Panel have into the Russian return-to-flight plans?

    <bullet>  What are the effects of a reduced three-person crew on 
ISS operations and scientific utilization?

    <bullet>  What are the contingency plans of NASA and the 
international partners if there are further delays in the Soyuz return-
to-flight efforts?

    <bullet>  If the ISS is fully de-crewed in November, can it be 
maintained in a safe condition and for how long?

    <bullet>  What are the biggest risks associated with a de-crewed 
station?

Background and Timelines (All dates in Kazakhstan time)

    August 24--The Russian Progress 44 unmanned cargo vehicle crashed 
during launch from the Baikonur Space Center in Kazakhstan. Roscosmos 
initiated an investigation into the cause of the Soyuz-U third stage 
failure.
    August 29--Roscosmos attributed the Soyuz-U third stage failure to 
a malfunction in the engine's gas generator. The cause of the 
malfunctioning gas generator was not announced. However, the commission 
concluded the reason for the failure was specific to that engine and 
not a fleet-wide problem. Since the Soyuz rocket design has flown over 
a thousand successful flights, the malfunction was presumed to be 
caused by human error in the manufacturing or assembly process.
    Russian news reports cited possible reasons for a decline in 
quality and workmanship as low salaries, an aging workforce, and lack 
of investment, coupled with an increased workload that requires 
manufacturing four Soyuz spacecraft per year to support a six-person 
ISS crew (during the Shuttle program only two Soyuz per year were 
required).
    As a result of two unrelated failures of military satellite 
launches in December 2010 and February 2011, Roscosmos's chief Anatoly 
Perminov was forced to resign and Russian news media reported that a 
number of other senior space industry officials were fired. On 
September 22, 2011, the Russian News and Information Agency, RIA 
Novosti, reported that the recent failed launches were a reflection of 
the agency's management problems and quoted the new head of Roscosmos, 
Vladimir Popovkin saying, ``We have found the causes [of the failures] 
and we are trying to identify the people who are responsible . . . But 
the troubles go much deeper to the level of management and control 
within the organization.'' Russian Prime Minister Vladimir Putin has 
ordered tougher quality controls of all Russian space hardware, 
including a quality review of all hardware currently in Roscosmos' 
possession.

Crew Rotation

    The immediate issue facing the ISS crew is not lack of supplies. 
The recent--and final--Space Shuttle mission (STS-135) delivered enough 
to support a six-person crew through next year without being 
resupplied. However, the limiting factor governing the crew time on ISS 
is the certified lifetime of the Soyuz capsules that are docked to the 
station. Soyuz capsules are certified to spend no more than 200 days 
attached to the ISS because the peroxide thruster system degrades over 
time. The second issue affecting crew time on ISS are the lighting 
conditions and weather at the Soyuz landing site in Kazakhstan. The 
times when a Soyuz capsule can land are dictated by its path over the 
landing site and the weather conditions at the landing site. Severe 
weather exists across much of Kazakhstan during the winter months from 
December to February, making recovery impossible. There are extended 
periods of time when the orbit only passes over the landing site in 
darkness, which also make recovery impossible.
    The dates governing the landing decisions are as follows:

    September 19 to October 27--Period of darkness at the Soyuz landing 
site.
    October 16--200-day certification limit of first Soyuz capsule 
(TMA-21).
    November 22 to December 27--Period of darkness at the Soyuz landing 
site.
    December 24--200-day certification limit of second Soyuz capsule 
(TMA-02M).

Space Station Is Partially De-Crewed

    September 16--As a result of balancing the above requirements, the 
first Soyuz capsule (TMA-21) returned to Earth with American crewmember 
Ron Garan, and Russian crewmembers Andrei Borisenko, and Alexander 
Samokutyayev.
    The other three crewmembers, Russian Sergei Volkov, American Mike 
Fossum, and Japanese Satoshi Furukawa, remain on the ISS with the 
second Soyuz capsule.
    October 2--An unmanned Soyuz-2 rocket, which is similar but not 
identical to the one that failed in August, successfully launched a 
GLONASS-M navigation satellite from Russia's Plesetsk launch site. This 
was one of two uncrewed Soyuz rockets that Roscosmos is using to 
recertify the rocket for crew.
    October 30--Planned launch of the unmanned Soyuz/Progress 45P to 
ISS from Baikonur Space Center, Kazakhstan. Again, this version of the 
Soyuz launch vehicle is similar, but not identical to the failed Soyuz-
FG used for crew.
    This would be the second of two unmanned Soyuz flights paving the 
way for the first crewed launch since the original failure.
    November 14--Planned launch of the first crewed Soyuz (28S) since 
the accident. This mission would carry American crewmember Dan Burbank, 
and Russian crewmembers Anatoly Ivanishin and Anton Shkaplerov to the 
ISS on November 16th, restoring the crew size back up to six persons 
for only one week.
    November 22--Planned landing of the second ISS-based Soyuz capsule 
(27S) carrying Russian Sergei Volkov, American Mike Fossum, and 
Japanese Satoshi Furukawa. This landing is timed to occur before the 
beginning of the darkness period.

De-Crewing the Space Station

    If the November 14th launch is successful, the ISS would be left 
with three new crewmembers. If the November 14th launch is delayed, the 
ISS will be de-crewed, in which case it will be operated autonomously 
from the ground.
    December 26--Planned launch of Soyuz 29S with three crewmembers. If 
the ISS is de-crewed in November, this will be the first opportunity to 
return crew to the ISS.
    January 26, 2012--Planned launch of an unmanned Progress 46 
resupply craft.
    March 30--Planned launch of Soyuz 30S with a three-person crew.

Potential Effects of De-Crewing the Space Station

    As mentioned above, if Roscosmos is unable to resume Soyuz flights 
by the middle of November, NASA will have to de-crew the ISS. NASA has 
contingency plans in place to configure ISS for extended autonomous 
operations without crew. In that case, NASA claims the ISS could be 
autonomously operated from the ground. According to NASA, the ISS has 
sufficient propellant aboard to maintain a stable orbit for an extended 
time. Prior to de-crewing, the habitation and research modules would 
need to be isolated and the structural hooks holding the unmanned 
Progress supply vehicles would need to be undone so that Progress 
vehicles could be undocked and docked autonomously. Debris avoidance 
maneuvers and reboosting could be accomplished from the ground.

Potential Effects on Research From De-Crewing the Space Station

    The biomedical and human physiology research is among the most 
important for understanding and mitigating the effects of long-duration 
space flight necessary to enable exploration missions to destinations 
beyond low Earth orbit. This is the research that is most dramatically 
affected by de-crewing the ISS because this research depends collecting 
samples and data from crewmembers. On the current Expedition 28 there 
were more than 25 different investigations into human physiology. If 
the ISS must be de-crewed many of the biomedical projects that depend 
on multiple crew samples will be adversely impacted. Further, 
unanticipated malfunctions that require real-time diagnosis and repair 
will also be impacted by reduced crew size.
    Chairman Palazzo. The Subcommittee on Space and Aeronautics 
will come to order. Good afternoon, and welcome to today's 
hearing entitled, ``The International Space Station: Lessons 
from the Soyuz Rocket Failure and Return to Flight.'' In front 
of you are packets containing the written testimony, 
biographies, and truth in testimony disclosures for today's 
witness panel.
    I now recognize myself for five minutes for an opening 
statement.
    Today's hearing has been called to examine the consequences 
of the August 24 launch failure of a Russian Progress cargo 
vehicle carrying supplies to the International Space Station 
and the implications of the failure on ISS operations. The 
Progress launch vehicle is very similar to those used to carry 
astronauts in a Soyuz capsule to the ISS, and for at least the 
next five years the Soyuz launch system and crew capsule is the 
only means of ferrying astronauts to and from the station.
    Our dependence on the Russians should come as no surprise 
to anyone in this room. In the aftermath of the Columbia 
shuttle accident, the previous Administration proposed retiring 
the Shuttle and developing a follow-on system that we all knew 
as Constellation. Two different Congresses approved this plan 
in NASA authorization bills that were passed in 2005 and 2008.
    In order to make the transition as affordable as possible, 
the Shuttle was to be retired first and the funds freed up from 
that program would then be applied to developing the 
Constellation launchers and crew capsule, and as a part of that 
transition it was clearly acknowledged that NASA would be fully 
reliant on the Russian Soyuz to carry astronauts to and from 
Station until we had a successor system developed. It would 
appear, however, that we may well end up being dependent on the 
Russians for more years than was originally anticipated as a 
result of the struggles between this Administration and 
Congress following the cancellation of the Constellation 
Program.
    It is perhaps an ugly coincidence that one month following 
the Shuttle's final flight the Progress accident occurred, 
forcing Roscosmos and its supplier-base to re-examine their 
designs and quality assurance programs to account for the 
third-stage failure. I am hopeful our witnesses will be able to 
shed light on the accident investigation board's findings, the 
degree of insight offered by Roscosmos into the workings and 
deliberations of the accident investigation board, and offer 
their views about Russia's plans for re-certifying the 
launcher.
    The failure also caused NASA to contemplate the real 
possibility that ISS would have to be de-crewed if there were 
any extended delays in understanding and resolving the root 
causes of the accident.
    While I understand that ISS can safely operate without crew 
aboard, there is always the risk of the unknown system failure, 
or worse, a debris hit that damages the integrity of the 
habitation modules. And after some point in time the capability 
of safely returning a crew may become more and more in doubt 
depending on the overall performance of the Station's array of 
systems.
    Finally, I would note that construction of the Station was 
only recently completed. It has a finite lifetime of useful 
service before its systems become too unreliable and difficult 
to maintain. Thus, it is imperative that we take advantage of 
as many capabilities before maintenance becomes a major 
concern.
    I want to welcome our guests for taking time from their 
busy schedules to appear before us today. I realize any 
appearance before a Congressional panel entails considerable 
time and effort, and I want you to know that your expertise and 
wisdom will be very helpful to this Committee and Congress.
    Mr. Gerstenmaier, I want you to know that we are looking 
forward to your oral statement to answer the questions posed in 
our letter of invitation for today's hearing. I understand you 
were traveling internationally last week and weren't available 
to help draft the written testimony, while it provided 
information about the ISS's ability to operate without crew 
aboard it was not responsive to questions regarding the 
Progress failure and recovery plan. I am counting on your oral 
statement to fill in the missing details.
    My thanks, again, to our witnesses. At this point I yield 
any remaining time I have to the chairman of the Science 
Committee, Mr. Hall, for any comments he might have.
    [The prepared statement of Mr. Palazzo follows:]

     Prepared Statement of Subcommittee Chairman Steven M. Palazzo

    Good afternoon. Today's hearing has been called to examine the 
consequences of the August 24 launch failure of a Russian Progress 
cargo vehicle carrying supplies to the International Space Station, and 
the implications of the failure on ISS operations. The Progress launch 
vehicle is very similar to those used to carry astronauts in a Soyuz 
capsule to ISS, and for at least the next five years, the Soyuz launch 
system and crew capsule is the only means of ferrying astronauts to and 
from station.
    Our dependence on the Russians should come as no surprise to anyone 
in this room. In the aftermath of the Columbia shuttle accident, the 
previous Administration proposed retiring the Shuttle and developing a 
follow-on system that we all knew as Constellation. Two different 
Congresses approved this plan in NASA authorization bills that were 
passed in 2005 and 2008.
    In order to make the transition as affordable as possible, the 
Shuttle was to be retired first and the funds freed up from that 
program would then be applied to developing the Constellation launchers 
and crew capsule. And as part of that transition, it was clearly 
acknowledged that NASA would be fully reliant on the Russian Soyuz to 
carry astronauts to and from station until we had a successor system 
developed. It would appear, however, that we may well end up being 
dependent on the Russians for more years than was originally 
anticipated as a result of struggles between this Administration and 
Congress following the cancellation of the Constellation program.
    It's perhaps an ugly coincidence that one month following the 
Shuttle's final flight, the Progress accident occurred, forcing 
Roscosmos and its supplier-base to reexamine their designs and quality 
assurance programs to account for the third-stage failure. I am hopeful 
our witnesses will be able to shed light on the accident investigation 
board's findings, the degree of insight offered by Roscosmos into the 
workings and deliberations of the accident investigation board, and 
offer their views about Russia's plans for re-certifying the launcher.
    The failure also caused NASA to contemplate the real possibility 
that the ISS would have to be de-crewed if there were any extended 
delays in understanding and resolving the root causes of the accident.
    While I understand that ISS can safely operate without crew aboard, 
there is always the risk of the unknown system failure, or worse, a 
debris hit that damages the integrity of the habitation modules. And 
after some point in time, the capability of safely returning a crew may 
become more and more in doubt, depending on the overall performance of 
the station's array of systems.
    Finally, I would note that construction of the station was only 
recently completed; it has a finite lifetime of useful service before 
its systems become too unreliable and difficult to maintain. Thus it is 
imperative that we take advantage of its many capabilities before 
maintenance becomes a major concern.
    I want to welcome our guests for taking time from their busy 
schedules to appear before us today. I realize any appearance before a 
Congressional panel entails considerable time and effort, and I want 
you to know that your expertise and wisdom will be very helpful to this 
Committee and Congress.
    Mr. Gerstenmaier, I want you to know that we're looking forward to 
your oral statement to answer the questions posed in our letter of 
invitation for today's hearing. I understand you were traveling 
internationally last week and weren't available to help draft the 
written testimony, which, while it provided information about the ISS's 
ability to operate without crew aboard, was not responsive to questions 
regarding the Progress failure and recovery plan. I am counting on your 
oral statement to fill in the missing details.
    My thanks again to our witnesses.

    Mr. Hall. Thank you, Mr. Chairman, and I thank you for 
calling this hearing, and my thanks to the witnesses. A special 
thanks to Bill Gerstenmaier, who will be introduced later. He 
has been here many times, and he is as knowledgeable as anybody 
I know. He knows everything that goes on at NASA, and he has 
had very good testimony, and Admiral Dyer, of course, is a 
long-time friend and Aerospace Safety Advisory. He is very 
valuable to us.
    I just want to say a word or so, Mr. Chairman, if I might; 
you are going to introduce Tom Stafford, but I just want to say 
that I am really honored to have him here. He is here as the 
Chairman of the International Space Station Advisory Committee. 
One of the greatest things I know about him right now is that 
he is this year's winner of the prestigious Wright Brothers 
Memorial trophy, and that is really something.
    Less than a month ago on September 21, General Stafford was 
named the recipient by the National Aeronautics Association in 
recognition of his, ``pioneering achievements that have led the 
way to the Moon, to great international cooperation in space, 
and to a safer America,'' and he will formally be presented 
with the award at the Wright Memorial Dinner December 16 at the 
Washington Hilton Hotel, and I surely hope that I can be there 
with him.
    Mr. Chairman, General Stafford has been a fighter pilot, a 
test pilot, astronaut, author, advisor to federal agencies, 
advisor to U.S. presidents. He commanded Gemini 9, further 
refining NASA's knowledge of rendezvous techniques that were 
later used on Apollo. He served as commander of Apollo 10, the 
first flight of the lunar module to the Moon, performed the 
first rendezvous around the Moon, and performed the entire 
lunar landing except for the actual landing.
    I am proud to have him as a friend. I have been at his 
home. He has a son at Southern Methodist University, about 30 
minutes from my home, and I hope to get to visit with him some 
and be as courteous to him as that whole family was to me when 
I was in your home, General. I thank you for that and for being 
recipient of this year's Wright Brothers Memorial trophy.
    If I have any time left, I yield it to either my friend 
Sandy Adams, or I yield it back, and she can get her own. I am 
trying to do some good for her any chance I get.
    [The prepared statement of Mr. Hall follows:]

              Prepared Statement of Chairman Ralph M. Hall

    Mr. Palazzo, thank you for calling this afternoon's important 
hearing, and my thanks, too, to our witnesses for taking time from 
their busy schedules to be here.
    The International Space Station is the centerpiece of NASA's human 
space flight program for the foreseeable future, and its capability to 
host a wide array of micro-gravity research has the potential to 
develop fundamentally new discoveries in biology, material sciences, 
and space physics.
    Despite the tremendous successes of building and manning a station 
over the past decade, getting astronauts and cargo reliably and safely 
to and from the ISS has never been without significant risk. To their 
credit, NASA and its international partners have made the launches look 
routine, but as the August 24 failure of the Progress vehicle clearly 
showed, launching to orbit is still fraught with perils.
    As the only means of ferrying astronauts to and from station for at 
least the next five years, it is incumbent on the Russians and NASA to 
ensure they have addressed the root cause of the Progress failure, and 
more importantly, to put safeguards in place to prevent future 
occurrences.
    My thanks again to everyone for being here. I look forward to 
hearing your opening statements.
    I yield back my time.

    Chairman Palazzo. Thank you, Mr. Hall, and Mrs. Adams will 
have time in a moment.
    The chair now recognizes Mr. Costello for an opening 
statement.
    Mr. Costello. Mr. Chairman, thank you, and I thank you for 
calling the hearing today. I welcome all of our witnesses who 
will testify before the Subcommittee today, and I am looking 
forward to hearing their testimony and answering a few of our 
questions.
    I am also pleased that the STS-135 crew is here today as 
well for the hearing, and I had the opportunity to visit with 
them earlier today. I want to recognize Sandra Magnus in 
particular, who is from my hometown of Belleville, Illinois. 
She attended the junior high school where my wife was first a 
teacher and eventually the principal. She also attended our 
district community college that my wife is president of now. So 
we know her whole family, and in fact, she has relatives who 
live three doors down from me in my home in Belleville. So it 
is good to see them here today, and we compliment you on your 
service and a successful mission.
    With the retirement of the Space Shuttle, NASA is now fully 
dependent on Russia for transportation services to the ISS for 
at least the next five years until U.S. commercial crew 
services are available. A few weeks ago the risks associated 
with that dependence were clear when Russia experienced two 
back-to-back launch failures, including the malfunction in the 
upper stage of a Soyuz rocket transporting cargo to the ISS.
    A few weeks ago our Russian partners identified the cause 
of these failures and set a date to resume manned flights. NASA 
and its international partners are confident that the necessary 
steps are being taken to correct these malfunctions. We must 
use this opportunity to learn from these failures and plan for 
the future.
    Specifically, I would like to hear from our witnesses on 
two issues. One, does NASA have adequate insight into the 
investigation conducted by the Russian authorities to make 
informed decisions about resuming Soyuz use and how we can 
build on that information and share that information in the 
future?
    Second, how will NASA and the external safety bodies work 
together to enhance the safety of crew and cargo transport 
operations in the future?
    Mr. Chairman, I especially want to know as we transition 
from relying on our international partners to using commercial 
providers what the assessment is of our witnesses here today.
    I welcome our panel of witnesses, look forward to hearing 
their testimony, and hearing their answers to the questions 
that we will pose to them. Thank you.
    [The prepared statement of Mr. Costello follows:]

     Prepared Statement of Acting Ranking Member Jerry F. Costello

    Mr. Chairman, thank you for holding today's hearing to receive 
testimony on the impacts ofthe Soyuz launch vehicle failure to the 
International Space Station (ISS).
    With the retirement of the Space Shuttle, NASA is now fully 
dependent on Russia for transportation services to the ISS for at least 
the next five years, until U.S. commercial crew services are available. 
A few weeks ago, the risks associated with that dependence were clear 
when Russia experienced two back-to-back launch failures, including a 
malfunction in the upper stage of a Soyuz rocket transportiug cargo to 
the ISS.
    A few weeks ago, our Russian partner identified the cause of these 
failures and set a date to resume manned flights. NASA and its 
international partners are confident tbat the necessary steps are being 
taken to correct these malfunctions.
    We must use this opportnnity to learn from these failures and plan 
for the future. Specifically, I would like to hear from our witnesses 
on two issues.
    First, does NASA have adequate insight into the investigations 
conducted by Russian authorities to make informed decisions about 
resuming Soyuz use and how can we build that information sharing in the 
future.
    Second, how will NASA and external safety bodies work together to 
enhance the safety of crew and cargo transport operations in the 
future, especially as we transition from relying on our international 
partners to using commercial providers .
    I welcome our panel of witnesses and look forward to their 
testimony. I yield back the balance of my time.

    Chairman Palazzo. Thank you, Mr. Costello. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    At this time I would like to introduce our witness panel, 
but before doing so I want to recognize four very special 
guests sitting in the audience. We have with us today the crew 
of STS-135 who flew on the Shuttle Atlantis for the final 
Shuttle mission flown by NASA. They launched on July 8 from 
Kennedy Space Center carrying supplies, logistics, and spare 
parts to sustain ISS through the months and years ahead.
    I would like to ask each crew member to rise as I read your 
name. Chris Ferguson, mission commander. STS-135 was his third 
space flight mission; Doug Hurley, pilot, his second space 
flight mission; Rex Walheim, mission specialist, his third 
mission; and Sandy Magnus, mission specialist, and her third 
mission.
    We are honored and proud to have you join us. Thanks to you 
all and thank you for your service to our country and the space 
program. Thank you.
    Our first witness will be Mr. William Gerstenmaier, NASA 
Associate Administrator for Human Exploration and Operations 
Mission Directorate. Mr. Gerstenmaier began his career at NASA 
in 1977, after graduating from Purdue University with a 
Bachelor of Science degree in aeronautical engineering. During 
his tenure at NASA, Mr. Gerstenmaier has led a number of 
activities associated with the Shuttle, International Space 
Station, and the Shuttle-Mir Program. He was program manager of 
the ISS office at the Johnson Space Center and most recently 
served as associate administrator for space operations prior to 
the summer's reorganization. Mr. Gerstenmaier has received a 
number of awards at NASA, including the Presidential Rank Award 
for meritorious executives. We are delighted to have you with 
us here today.
    Our second witness was already aptly introduced by Chairman 
Hall, so we will move onto our third witness and our final 
witness, who will be Vice Admiral Joseph Dyer, Chairman of the 
Aerospace Safety Advisory Panel which was created by Congress 
in 1968, to advise the Administrator and Congress on matters 
related to hazards of facilities, operations, and safety 
standards. Admiral Dyer graduated from North Carolina State 
University with a degree in chemical engineering, earned his 
wings as a naval aviator, and through the course of his career 
served as the Navy's chief test pilot, Commander of the Naval 
Air Warfare Center, Aircraft Division, F-18 Program Manager, 
and as Commander of the Naval Air Systems Command. Today 
Admiral Dyer serves as Chief Operating Officer of the iRobot 
Corporation. Admiral, it is good to have you join us here 
today.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the members of the committee 
will have five minutes each to ask questions.
    I now recognize our first witness, Mr. William 
Gerstenmaier, Associate Administrator of the Human Exploration 
and Operations Mission Directorate of NASA.

           STATEMENT OF MR. WILLIAM H. GERSTENMAIER,

         ASSOCIATE ADMINISTRATOR, HUMAN EXPLORATION AND

                OPERATIONS MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Gerstenmaier. Thank you, Mr. Chairman and Members of 
the Subcommittee. Thank you for the opportunity to appear 
before you today to discuss the status of the International 
Space Station Program and in particular the recent Progress 44 
anomaly.
    On August 24 of this year our Progress cargo ship was lost 
when the upper stage of its launch vehicle shut down before 
reaching orbital velocity. Our Russian partners formed a 
commission to investigate the anomaly and, as has been the case 
with previous investigations, have kept NASA well informed 
about the progress of their review.
    I have traveled to Russia along with the ISS program 
manager and met personally with the chairman of the Russian 
Commission to discuss their findings and conclusions. The 
launch vehicle involved, which is used for both Progress and 
Soyuz spacecraft, is a highly-reliable booster based on a 
design that has been flying for many decades. NASA is confident 
that our Russian partners identified the most likely failure 
cause and have a sound return-to-flight plan.
    The Russian Failure Investigation Commission has identified 
low fuel feed to the gas generator as the cause of the 
emergency shutdown of the 44 Progress third-stage engine due to 
off-nominal engine performance. The most likely cause of this 
anomaly is contamination in the fuel lines to the gas generator 
or in the stabilizer valve. The contamination most likely was 
introduced in a post-engine hot fire acceptance test 
inspections.
    The Russian Federal Space Agency, Roscosmos, and its 
contractors have a plan in place to validate engines for the 
near-term launches, including improving quality control process 
such as adding additional inspectors and videotaping critical 
actions related to component assembly.
    Roscosmos has shared its data with NASA. NASA has formed an 
independent U.S. team to look at the information provided by 
the Russians. The NASA independent team agrees with the Russian 
Commission conclusions regarding a likely cause of the engine 
shutdown and the corrective actions. This NASA team out-briefed 
their findings to the safety community and the rest of the NASA 
engineering staff today.
    As part of its efforts to resolve the Progress anomaly, the 
Russians returned 18 upper-stage engines to the factory for 
inspection and test firings. So far they have not found any 
issues with these engines. The engines that are slated to be 
used for the next Progress flight, as well as the next two 
Soyuz flights, have been built using the new quality control 
processes and are not part of the 18 returned engines.
    The ISS partnership has developed a new manifest plan that 
provides for the launch of 45 Progress on the 30th of October 
and Soyuz 28 on November 14, which will have five days of 
handover between the 27 Soyuz crew and the 28 Soyuz crew 
members. The 27 Soyuz crew is scheduled to return on November 
22.
    While the need to de-crew or remove the crew from ISS is 
remote, NASA nonetheless has a set of procedures in place for 
this case. The crew has performed several onboard 
reconfigurations and maintenance tasks to better prepare the 
ISS for this unlikely contingency. The current three-person 
crew onboard the ISS is in no danger, and the station itself 
can be flown un-crewed from mission control. Over the long 
term, the crew has a key role to play in maintenance of systems 
onboard the ISS as astronauts address anomalies and perform 
repairs to critical ISS systems both inside and outside the 
vehicle.
    Research is continuing with the three-person crew, and 
although the number of investigations that are being performed 
is less than with six crew, quality research is still being 
done every day. If the ISS needed to be de-crewed, the largest 
impact would obviously be to crew-tended research.
    In conclusion, the ISS Program has been successful in large 
part because of the flexibility and resourcefulness of the 
partnership in adapting to changes in environments and 
challenges. The ISS represents an unparalleled capability for 
human space-based research. Its facilities can support research 
in the areas of high-energy particle physics, Earth remote 
sensing, geophysics, protein crystallization, human physiology, 
radiation, plant and cultivation experiments, fluids and 
combustion material science, and biology.
    ISS will continue to help NASA prepare for the next steps 
in human exploration, steps that will take astronauts beyond 
low-earth orbit to destinations such as asteroids, the Moon, 
and Mars. NASA anticipates that many investigations conducted 
aboard the ISS will have application to terrestrial medicine as 
well. For example, the growing senior population may benefit 
from experiments in the areas of bone and muscle health, 
immunology, and from the advancement of new diagnostic systems.
    There are many challenges ahead, some anticipated and some 
not. The recent loss of the Progress was an example of the 
latter. However, the ISS partnership was prepared. The final 
Shuttle flight, STS-135, and the detailed logistics planning 
over the past year provided the margin that prevented the loss 
from having immediate logistical consequences. The Russians are 
preparing for return to flight. The program team is now also 
working aggressively to bring onboard the new domestic 
commercial cargo providers. None of this is easy. NASA will 
need your help in ensuring that the team is allowed to do its 
work with full support.
    The support provided by Congress for STS-135 is an example 
of the larger team all working together. If we continue to work 
together, the ISS will remain an amazing facility that yields 
remarkable results to further benefit the world.
    Mr. Chairman, I have submitted a more detailed written 
statement, and I will be happy to answer any of your questions 
as we go through the hearing. Thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]

           Prepared Statement of Mr. William H. Gerstenmaier,
             Associate Administrator, Human Exploration and
                    Operations Mission Directorate,
             National Aeronautics and Space Administration

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the status of the 
International Space Station (ISS) Program. This has been a remarkable 
year, as we have completed assembling and outfitting of the U.S. On-
orbit Segment (USOS) of the ISS, allowing us to focus on full 
utilization of the Station's research capabilities; taken key steps in 
moving forward into the future of exploration beyond Low Earth Orbit 
(LEO); celebrated the 50th anniversary of human spaceflight; and 
witnessed the successful conclusion of the historic Space Shuttle 
Program. Today, I would like to provide you with information on the 
current health of the ISS, our plans for transporting cargo and crew to 
Station, our efforts to promote ISS as a National Laboratory, and 
research being done aboard Station that will support the Nation's 
exploration goals.

International Space Station--USOS Assembly Complete and Research-Ready

    The ISS is the culmination of the efforts of the United States and 
its Canadian, European, Japanese, and Russian partners to work together 
to construct a highly complex and capable spacecraft with components 
built in many nations around the globe, launched from four different 
space centers, and assembled on orbit by astronauts conducting over 160 
spacewalks. It represents an unparalleled capability for human space-
based research. The STS-135 mission, flown by Space Shuttle Atlantis in 
July of this year, marked the conclusion of the successful Space 
Shuttle Program after 30 years of flight, as well as the completion of 
major assembly and outfitting activities on the ISS. The Station, 
including its large solar arrays, spans the area of a U.S. football 
field, including the end zones, and weighs over 860,000 pounds, not 
including visiting vehicles. The complex has more livable room than a 
conventional five-bedroom house, and has two bathrooms, a fitness 
center, a 360-degree bay window, and, most importantly, state-of-the-
art scientific research facilities. These research facilities can 
support a large variety of research disciplines. Examples include high-
energy particle physics, Earth remote sensing and geophysics 
experiments, protein crystallization experiments, human physiology 
research (including bone and muscle research), radiation research, 
plant and cultivation experiments, combustion research, fluid research, 
materials science experiments, and biological investigations. Since 
November 2, 2001, when the crew of Expedition 1 docked with the ISS, 
the Station has been visited by more than 200 people, and has been 
continuously crewed for almost 11 years. By way of comparison, the 
first U.S. space station, Skylab, hosted three crews--a total of nine 
people--with the longest mission duration being 84 days.
    Beyond being a feat of unparalleled engineering and construction, 
as well as international collaboration, the ISS is a place to learn how 
to live and work in space over a long period of time. It is a place to 
conduct research and development (R&D) that cannot be pursued on Earth 
due to our gravitational field. The three major science laboratories 
aboard the ISS--the U.S. Destiny, European Columbus, and Japanese Kibo 
facilities, and external test beds--enable astronauts to conduct a wide 
variety of experiments in the unique, microgravity and ultra-vacuum 
environment of LEO. It is important to note that the Station supports 
R&D across an array of disciplines, including biology and 
biotechnology, Earth science, space science, human research, physical 
and materials science, and technology development. This means that R&D 
conducted aboard Station holds out the promise of new discoveries not 
only in areas directly related to NASA's exploration efforts, but in 
fields that have terrestrial applications, as well. The ISS will 
provide these opportunities to scientists and technologists through at 
least 2020.
    In addition to the direct research benefits to be gained by the ISS 
as a National Laboratory, this innovative arrangement also supports 
NASA's effort to promote the development of a LEO space economy. 
National Lab partners can use the unique microgravity environment of 
space and the advanced research facilities aboard Station to enable 
investigations that may give them the edge in the global competition to 
develop valuable, high technology products and services. Furthermore, 
the demand for access to the ISS will support the providers of 
commercial crew and cargo systems. Both of these aspects of the ISS as 
a National Laboratory will help establish and demonstrate the market 
for research in LEO beyond the requirements of NASA.

Supporting Assets--the Current Cargo and Crew Vehicles of the ISS

    In order to realize the full potential of the ISS' capabilities, 
the platform is serviced by a fleet of operational international 
vehicles, and the U.S. cargo vehicles are in the final stages of 
development to help ensure robust operations. U.S. commercial crew 
transportation is being advanced with the recent release of a draft 
Request for Proposals (RFP) for the integrated design phase of the 
Commercial Crew Program. The international spacecraft currently include 
the Russian Soyuz crew transport, the Russian Progress cargo vehicle, 
the Japanese H-II Transfer Vehicle (HTV), and the European Automated 
Transfer Vehicle (ATV).

    <bullet>  The Soyuz spacecraft, an evolutionary development of a 
vehicle that has been flying since 1967, provides transportation to and 
from the ISS for the Expedition crews. Soyuz also has the capability to 
remain docked to the Station for the six-month periods required to 
support these crews, providing an on-orbit rescue capability in the 
event of a contingency aboard the ISS. The Station can host six 
crewmembers on long-duration missions with the support of two Soyuz 
spacecraft.

    <bullet>  The uncrewed Progress cargo vehicle is closely related to 
the Soyuz, and is used to resupply the ISS with dry cargo, propellant, 
water, and gas; it is also used to boost the orbit of the ISS and 
control the orientation of the Station. At the end of its mission, 
Progress is filled with trash, undocks from the ISS, and is incinerated 
in Earth's atmosphere in a controlled re-entry.

    <bullet>  The HTV can carry dry cargo, gas and water to ISS, and 
has both pressurized and unpressurized cargo carriage capability. Like 
the Progress, HTV can also provide trash removal at the end of its 
mission.

    <bullet>  The ATV can carry dry cargo, atmospheric gas, water and 
propellant, and also provide trash removal at the end of its mission. 
As with the Progress, the ATV can boost the Station's orbit and control 
the orientation of the ISS.

    The ISS is a highly robust platform for scientific research and 
technology development. This is due in part to the design of the 
Station itself and its ability to be operated from the ground. In 
addition, the ISS has been well provisioned by pre-positioning of key 
spares and supplies on ISS by the Space Shuttle, and will be supported 
by the current fleet of vehicles available to provide cargo and crew 
transportation. With the retirement of the Shuttle, the United States 
is temporarily without a domestic vehicle for carrying crew or cargo to 
the ISS. (Even when the Shuttle was transporting crew to the ISS, NASA 
still needed the Russian Soyuz to serve as a crew rescue vehicle.) NASA 
and its commercial partners are working to field the next American 
spacecraft to service the Station, helping to ensure that its full 
potential can be realized.

ISS Robustness and Possibility of Un-Crewed Operations

    Since its inception, the ISS has been designed and built to be 
operated without onboard crew, to be crew-tended, and to be permanently 
crewed. Critical systems that are required to maintain a stable orbit, 
such as guidance, navigation and control, and communications, are 
multi-failure tolerant and have dissimilar redundancy across the U.S. 
and Russian elements. This active control architecture provides for 
robust and failure-tolerant operations that do not require crew 
intervention, as the Station can be commanded through both the U.S. and 
Russian Mission Control Centers. Other systems, such as power 
generation and thermal systems, are also failure tolerant and have 
excess capacity to accommodate off-nominal or failure conditions. Under 
most operating conditions, the crew is not required to maintain the 
Station in orbit and, much like robotic spacecraft, the ISS is operated 
exclusively by ground control. The crew is normally active in 
maintaining crew systems such as exercise equipment and life support 
systems; however, these systems are not required during extended un-
crewed operations.
    Over the long term, the on-orbit crew has a key role to play in 
maintenance of the systems aboard ISS, as astronauts can address 
anomalies and perform repairs to critical ISS systems--both inside and 
outside the vehicle. In the summer of 2010, a coolant pump module on 
the exterior of the Station failed. The module was critical to the full 
operation of the ISS, as it was used to move ammonia through the 
Station's thermal control system, enabling the dissipation of heat that 
would otherwise force the shut-down of various systems. Spacewalking 
astronauts were on hand to remove the faulty module and replace it with 
a new pump, thus ensuring continued nominal operations.
    On August 24 of this year, a Progress cargo ship was lost when the 
upper stage of its launch vehicle shut down before reaching orbital 
velocity. Our Russian partners formed a commission to investigate the 
anomaly, and--as has been the case with previous investigations--have 
kept NASA well informed about the progress of their review. The launch 
vehicle involved, which is used for both Progress and Soyuz spacecraft, 
is a highly reliable booster based on a design that has been flying for 
many decades. NASA is confident that our Russian partner will resolve 
the root cause of the accident and safely return the Soyuz booster to 
flight.
    While the need to de-crew is not anticipated, NASA has a set of 
standard procedures in place for de-crewing the Station, should it 
become necessary to return the Soyuz currently on orbit before the next 
mission is flown. NASA is once again reviewing these procedures to 
ensure they are optimized for the current configuration of, and 
situation on, ISS. While this is not a likely scenario, NASA is 
nonetheless prepared for the contingency. It should be noted that the 
current three-person crew aboard ISS is in no danger, and that the 
Station itself can be flown, uncrewed, from mission control. While 
human-tended research would have to cease until crew were able to 
return to the Station, a number of experiments could be run 
autonomously, including the recently-installed Alpha Magnetic 
Spectrometer (AMS) experiment. The design of ISS and its control 
interfaces help ensure the maintenance and operation of the laboratory.
    With the recent Progress launch failure, the ISS Partners began 
preparations for the possibility of short-term de-crewing the Station 
in the event that the Soyuz 27 crewmembers would have to leave the ISS 
untended on their return to Earth on November 22, 2011. The plan 
includes such items as closing module hatches, stowing equipment, 
configuring systems such as Environmental Control and Life Support 
System (ECLSS) for re-crewing, and providing additional cross-strapping 
between power and command and control systems. Since Expedition 1 in 
November 2000, the ISS has been prepared for short-term uncrewed 
operations 22 times due to extravehicular activities (EVA) operations 
during the period of two-crew (post-Columbia) and Soyuz relocations. In 
addition, plans are also in place for long-term uncrewed operations in 
the remote event of an extended gap in crew transfer capabilities. 
These plans are codified in the Flight Rules and include such crew 
actions as reconfiguring elements and distributed systems, checking 
switch positions and re-setting limit set-points, topping off or 
draining fluids, inspecting seals, disposing of batteries, 
repositioning equipment necessary to re-crewing, and environmental 
sampling. These procedures have been established for every domestic and 
international element in the ISS configuration.
    Since the return of the Soyuz 26 crewmembers in September of this 
year, the ISS has been occupied by three crewmembers. Lessons learned 
on how to operate the ISS in a reduced crew capacity after the Columbia 
accident have been incorporated into NASA's planning. As a result, 
during the current three-crew operations period, the crew is able to 
meet utilization objectives that were previously planned. In the event 
of an actual de-crewing, scientific results that require crew action 
would be secured in a recoverable configuration prior to departure. 
Additionally, utilization that does not require crew action, such as 
the AMS, will continue as normal.
    On September 15, 2011, the ISS Partners held a Space Station 
Control Board meeting to baseline a new Progress and Soyuz flight plan 
based on the results of the Russian commission that was chartered to 
investigate the root cause of the Progress failure and to recommend 
recovery and remediation activities. The new plan provides for the 
launch of Soyuz 28 on November 14, 2011, which will allow approximately 
five days of handover between the 27S and 28S crewmembers. With the 
successful execution of the new flight plan, de-crewing the Station is 
considered unlikely.

The Shape of Things to Come--U.S. Commercial Cargo and

Crew Transportation Services for the ISS

    The ISS Program has made LEO a venue for international cooperation 
in the construction and operation of large space structures and for R&D 
across many disciplines. Now, the Station will also serve to promote 
the growth of a LEO space economy by operating as a customer and a 
destination for U.S. companies capable of transporting of crew and 
cargo into orbit.
    In the area of commercial cargo transportation, NASA has 
implemented a two-phased approach for developing and procuring 
services: Commercial Orbital Transportation Services (COTS) to develop 
and demonstrate commercial cargo transportation systems; and Commercial 
Resupply Services (CRS) to procure cargo resupply services to and from 
the ISS.

Commercial Orbital Transportation Services

    As part of COTS, NASA has partnerships with Space Exploration 
Technologies, Inc. (SpaceX) and Orbital Sciences Corporation (Orbital) 
using funded Space Act Agreements (SAAs). These agreements include a 
schedule of fixed payment performance milestones culminating in a 
demonstration mission to the ISS that includes vehicle launch, 
spacecraft rendezvous, ISS berthing, and re-entry for disposal or 
return safely to Earth.
    Both COTS partners continue to make progress in developing and 
demonstrating their systems.

    <bullet>  On December 8, 2010, SpaceX successfully completed their 
first COTS demonstration flight, by launch of the Falcon 9 booster with 
Dragon spacecraft, separation of the Dragon spacecraft, completion of 
two orbits, orbital maneuvering and control, reentry, parachute 
descent, and spacecraft recovery after splashdown. NASA is reviewing a 
SpaceX proposal to combine the flight test objectives of the second and 
third demonstration flights into a single mission.

    <bullet>  The pad complex at Wallops Flight Facility in Virginia is 
being readied for the start of tests of the Taurus II vehicle, and the 
first hot-fire test on the pad is on track for November/December 2011. 
Orbital is currently performing first-stage integration and check-out, 
and beginning the process of mating the engines to the stage in 
preparation for hot-fire testing. The first flight is still on target 
by the end of this year.

Commercial Resupply Services

    On December 23, 2008, NASA awarded CRS contracts to Orbital and 
SpaceX for the delivery of cargo to the ISS after the retirement of the 
Shuttle. NASA anticipates that both providers will have their systems 
operational in 2012.

    <bullet>  NASA ordered 12 CRS flights from SpaceX. The first SpaceX 
CRS flight is scheduled for Spring 2012, and the company is slated to 
fly three CRS missions each fiscal year from 2012 through 2015. The 
January 2012 date is dependent on SpaceX's successful completion of its 
COTS demo flight(s).

    <bullet>  NASA ordered eight CRS flights from Orbital. The first 
Orbital CRS flight is scheduled for winter 2012 and the company is 
slated to fly two CRS missions each fiscal year from 2012 through 2015.

    NASA is pleased with the steady progress both companies continue to 
make in their cargo development efforts. We need to anticipate the 
inevitable start-up challenges associated with a technologically 
ambitious endeavor. Both NASA and these providers have spent many years 
preparing for the full utilization phase of ISS. Now is the time when 
we will begin to see the fruits of this planning and development. NASA 
is engaged in ISS utilization and with the help and dedication of these 
providers; ISS will be more extensively utilized and positioned to 
demonstrate the benefits of space-based R&D more widely to the world.

Commercial Crew Development (CCDev)

    In the area of commercial crew transportation, NASA investments 
have been aimed at stimulating efforts within the private sector to 
develop and demonstrate human spaceflight capabilities through the 
CCDev initiative. Since 2009, NASA has conducted two CCDev rounds, 
soliciting proposals from U.S. industry participants to further advance 
commercial crew space transportation system concepts and mature the 
design and development of elements of the system, such as launch 
vehicles and spacecraft. The first round of CCDev awarded five funded 
Space Act Agreements (SAAs) in February 2010, which concluded in the 
first quarter of 2011. Awardees were Blue Origin, the Boeing Company, 
Paragon Space Development Corporation, Sierra Nevada Corporation, and 
United Launch Alliance (ULA). During the second CCDev competition, NASA 
awarded four funded SAAs that are currently being executed with the 
following industry partners:

    <bullet>  Blue Origin's work involves risk-reduction activities 
related to development of a Crew Transportation System (CTS) comprised 
of a reusable biconic Space Vehicle (SV) launched first on an Atlas V 
launch vehicle and then on Blue Origin's own Reusable Booster System 
(RBS). They are working to mature their SV design through Systems 
Requirements Review (SRR), mature the Pusher Escape System, and 
accelerate engine development for the RBS.

    <bullet>  The Boeing Company is maturing their commercial crew 
transportation system through Preliminary Design Review (PDR) and 
performing development tests. Boeing's system concept is a capsule-
based spacecraft reusable for up to 10 missions that is compatible with 
multiple launch vehicles. Boeing's effort will include launch abort 
engine fabrication and static test fire, landing air bag drop 
demonstration, wind tunnel testing, parachute drop tests, Service 
Module Propellant Tank Development Test, and Launch Vehicle Emergency 
Detection System/Avionics System Integration Facility Interface 
Simulation Test.

    <bullet>  Sierra Nevada Corporation (SNC) is maturing their 
commercial crew transportation system, the Dream Chaser, through PDR 
with some subsystems to Critical Design Review (CDR). The Dream Chaser 
is a reusable, piloted lifting body, derived from NASA HL-20 that will 
be launched on an Atlas V launch vehicle. SNC's effort also includes 
fabrication of an atmospheric flight test vehicle, conducting analysis 
and risk mitigation, and conducting hardware testing.

    <bullet>  SpaceX is maturing their flight-proven Falcon 9/Dragon 
transportation system focusing on developing an integrated, side-
mounted Launch Abort System (LAS). The uncrewed version of Dragon is 
already being demonstrated as part of COTS, and will be used 
operationally as part of the CRS effort. Their crew transportation 
system is based on the existing Falcon 9 launch vehicle and Dragon 
spacecraft which have been designed since inception for crew carriage 
with relatively minimal modification. The LAS, an essential safety-
critical system, represents the longest-lead portion of the Falcon 9/
Dragon transportation system to prepare for crew carriage.

    In addition to the four funded agreements mentioned above, NASA has 
also signed SAAs that execute without funding with two companies: 
Alliant Techsystems, Inc. (ATK) and ULA. The ATK agreement is to 
advance the company's Liberty launch vehicle concept. The ULA agreement 
is to accelerate the potential use of the Atlas V as part of a 
commercial crew transportation system.

Commercial Crew Program

    On September 19, 2011, NASA released a draft RFP that outlines a 
contract to provide a complete end-to-end design, including spacecraft, 
launch vehicles, launch services, ground and mission operations and 
recovery. This draft RFP is for what NASA had been referring to as 
``CCDev 3.'' However, the Agency is no longer using that term because 
NASA is not doing a third round of SAAs modeled after the original 
CCDev agreements. Instead, NASA's strategy has evolved into an overall 
hybrid structure over the lifecycle of the program, building on the 
progress made by the SAAs and transitioning into a series of 
competitively awarded contracts. NASA has formulated its approach 
specifically to reduce overspecification of requirements and to 
implement the lessons learned throughout the Agency's history regarding 
requirements control. Further NASA is making considerable effort to 
alleviate some of the administration burdens to industry associated 
with contracts as well as working to maximize benefits such as 
commercial retention of IP rights, etc. The draft RFP for this contract 
is for the integrated design phase of the Commercial Crew Program. NASA 
plans to release the final RFP for this effort by the end of 2011, and 
anticipates that one or more operational commercial crew systems will 
be available for the transportation of astronauts to and from the ISS--
as well as the provision of rescue services--by the middle of this 
decade. Success of this program would also end the outsourcing of work 
to foreign providers. Together with the capabilities to explore deep 
space provided by the Space Launch System and the Multi-Purpose Crew 
Vehicle, NASA looks forward to moving forward on its robust, 
comprehensive U.S. human spaceflight program. NASA is mindful that 
reductions from the President's FY 2012 requested funding level would 
affect our ability to successfully implement this program and its 
procurement strategy, and could leave us dependent on foreign 
transportation services for a longer period of time at a cost of at 
least $480 million per year. The success of this program will ensure 
that U.S. companies will provide these services and create good-paying 
American jobs.
    NASA's efforts to assist in the development of U.S. commercial 
cargo and crew vehicles represent a new way of doing business for the 
Agency. Using this approach, we plan to procure domestic crew 
transportation services--rather than own and operate vehicles or 
procure services from an international partner--to support the ISS. By 
providing the foundation on which private industry can build, the 
Agency will also encourage the use of these systems by other customers 
as well.

Frontiers of R&D--the ISS as a National Laboratory

    In the NASA Authorization Act of 2005 (P.L. 109-155), Congress 
designated the U.S. segment of the ISS as a National Laboratory, and 
directed the Administrator to seek to increase the utilization of the 
ISS by other Federal entities and the private sector. NASA has made 
great strides in its effort to engage other organizations in the ISS 
program, and the Agency now has Memoranda of Understanding with five 
federal agencies and SAAs with nine companies and universities; they 
include:

    <bullet>  National Institutes of Health--Nine participating 
institutes

    <bullet>  Department of Energy--Implementing Arrangement for 10-
year deployment of the Alpha Magnetic Spectrometer (AMS)

    <bullet>  National Science Foundation--Interest in free-flying 
nanosat deployments from ISS visiting vehicles and external instruments

    <bullet>  U.S. Department of Agriculture--Plant and animal sciences 
and applications

    <bullet>  Department of Defense--Engineering research and defense 
sciences

    <bullet>  Bioserve Space Technologies, University of Colorado, 
Boulder--Limited flight opportunities on final Shuttle flights to 
enable National Lab pathfinder payloads

    <bullet>  Astrogenetix, Astrotech International, Inc.--Vaccine 
development for bacterial pathogens

    <bullet>  Ad Astra Rocket Company--Demonstration of VASIMR 
propulsion technology

    <bullet>  NANORACKS, LLC--Nanoscale payload accommodations hardware 
for pressurized operations

    <bullet>  Zero Gravity, Inc.--Proof-of-concept for accelerated 
plant cultivar development

    <bullet>  Boeing Aerospace--Proof-of-concept for software interface 
system to allow users to use their lab control systems with on-board 
experiments

    <bullet>  Louisiana State University--Continuation of previously 
awarded peer reviewed research in miscible fluids behavior in 
microgravity

    NASA is exploring additional opportunities with other 
organizations.
    In the NASA Authorization Act of 2010 (P.L. 111-267), Congress 
directed that the Agency enter into a cooperative agreement with a not-
for-profit organization to manage the activities of the ISS National 
Laboratory. To this end, NASA issued a cooperative agreement notice on 
February 14, 2011, and on August 31, 2011, the Agency finalized a 
cooperative agreement with the Center for the Advancement of Science in 
Space (CASIS) to manage the portion of the ISS that operates as a U.S. 
National Laboratory. CASIS will be located in the Space Life Sciences 
Laboratory at Kennedy Space Center in Florida. The independent, 
nonprofit research management organization will help ensure the 
Station's unique capabilities are available to the broadest possible 
cross-section of U.S. scientific, technological and industrial 
communities.
    CASIS will develop and manage a varied R&D portfolio based on U.S. 
national needs for basic and applied research; establish a marketplace 
to facilitate matching research pathways with qualified funding 
sources; and stimulate interest in using the national lab for research 
and technology demonstrations and as a platform for science, 
technology, engineering and mathematics education. The goal is to 
support, promote and accelerate innovations and new discoveries in 
science, engineering and technology that will improve life on Earth.

Preparing for the Next Giant Leap--Supporting Beyond-LEO Exploration

    While the ISS offers extraordinary opportunities for advancing 
science and technology to other U.S. Government agencies, non-profit 
research foundations, and private firms, it will also continue to meet 
NASA's mission objective to prepare for the next steps in human space 
exploration--steps which will take astronauts beyond LEO to 
destinations such as the asteroids, the Moon, and eventually, Mars.
    The ISS is NASA's only long-duration flight analog for future human 
lunar outpost missions and Mars transit missions. It provides an 
invaluable laboratory for research with direct application to the 
exploration requirements that address human risks associated with deep 
space missions. It is the only space-based multinational research and 
technology test-bed available to identify and quantify risks to human 
health and performance, identify and validate potential risk mitigation 
techniques, and develop countermeasures for future human exploration.
    The ISS research portfolio includes human research and the 
development of countermeasures to reduce the deleterious effects of 
microgravity for long-duration exploration missions. ISS crews are 
conducting human medical research to develop knowledge in the areas of 
clinical medicine, human physiology, cardiovascular research, bone and 
muscle health, neurovestibular medicine, diagnostic instruments and 
sensors, advanced ultrasound, exercise and pharmacological 
countermeasures, food and nutrition, immunology and infection, exercise 
systems, and human behavior and performance. While this research is 
aimed at enabling astronauts to push the boundaries of exploration 
beyond LEO, NASA anticipates that many investigations conducted aboard 
ISS will have application to terrestrial medicine as well. For example, 
the growing senior population may benefit from experiments in the areas 
of bone and muscle health, immunology, and from the development of 
advanced diagnostic systems.
    In the physical and biological sciences arena, the ISS is using 
microgravity conditions to understand the effect of the microgravity 
environment on fluid physics, combustion science and materials 
processing, as well as environmental control and fire safety 
technologies. The ISS also provides a test-bed for studying, 
developing, and testing new technologies for use in future exploration 
missions. Finally, Station is an available platform for observing the 
Earth and can support educational activities, including observations 
and investigations which allow students and the public to connect with 
the ISS mission and inspire students to excel in science, technology, 
engineering, and math.

Conclusion

    From September 2000 to October 2010, 1,149 investigations were 
conducted aboard the ISS. These included U.S., International Partner, 
and National Laboratory Pathfinder investigations. This research 
involved 1,600 scientists and has already resulted in more than 310 
scientific publications. Station has now entered its intensive research 
phase, and this phase will continue through at least 2020.
    The ISS Program has been successful in large part because of the 
flexibility and resourcefulness of the Partnership in adapting to 
changing environments and challenges. NASA will pursue its exploration-
related research at the same time that we are progressing to expand the 
use of the ISS to other Government agencies as well as commercial 
users--the National Laboratory effort is key to this expansion of U.S. 
research utilization aboard the Station. The ISS Program is also 
important to the development of commercial transportation services that 
can serve Government and non-government users in the new space economy, 
and vice versa. Finally, Station is an invaluable training ground for 
the next generation of space explorers and researchers. NASA is proud 
of the work the Agency and its International Partners have done in 
designing and assembling the ISS on orbit; Station represents a 
tremendous engineering achievement. However, this is only the beginning 
of the Program's accomplishments, and NASA looks forward to continuing 
work with our Partners to ensure that this remarkable research asset is 
available to scientists working in many disciplines for years to come.
    There are many challenges ahead, some anticipated and some not. The 
recent loss of Progress was the latter. However, the ISS Partnership 
was prepared. The final Shuttle flight, STS-135, and the detailed 
logistics planning over the past year provided the margin that 
prevented the loss from having immediate logistical consequences. The 
Program is busy preparing and optimizing for the next contingency. The 
Russians are preparing for return to flight and working to make the 
Soyuz booster system more reliable. The Program team is also working 
aggressively to bring on board the new domestic commercial cargo 
providers. None of this is easy. NASA will need your help in ensuring 
that the team is allowed to do its work with full support. If we all 
work together, the ISS will continue to be an amazing facility that 
yields remarkable results and further benefits for the world.
    Mr. Chairman, I would be happy to respond to any question you or 
the other Members of the Subcommittee may have.

    Chairman Palazzo. Thank you, Mr. Gerstenmaier.
    I now recognize our second witness, Lieutenant General 
Thomas Stafford, United States Air Force, Retired, and current 
Chairman of the International Space Station Advisory Committee.

   STATEMENT OF LIEUTENANT GENERAL THOMAS P. STAFFORD, USAF 
                            (RET.),

             CHAIRMAN, INTERNATIONAL SPACE STATION

                       ADVISORY COMMITTEE

    Lieutenant General Stafford. Chairman Palazzo, Ranking 
Member Costello, Chairman Hall, distinguished Members of the 
Committee, thank you for the opportunity to once again express 
my personal views and concerns at this hearing to review the 
impacts of the recent Soyuz launch vehicle failure on the safe 
operation and utilization of the International Space Station. I 
will attempt to answer the questions specifically provided by 
your letter of invitation from the standpoint of my position as 
the Chairman of the ISS Advisory Committee and former 
astronaut.
    As you know, I have had the unique experience of working 
with the Russians during the era of the Soviet Union as a 
member of the Apollo-Soyuz Test Project. As an American 
astronaut, I joined with our Russian colleagues, and I was 
afforded a unique opportunity to view their space program up 
close alongside their best engineers and their technicians.
    As a result of that joint successful effort, NASA and 
Roscosmos were able to join again to operate together in space 
with the Shuttle-Mir Program culminating in our successful 
partnership on the International Space Station. Throughout that 
long partnership, I continued to observe and assess the Russian 
Space Program and am delighted to share my thoughts.
    The question is ``How has the overall operation of the ISS 
been impacted by the loss of the Soyuz launch vehicle?'' If the 
proposed launch schedules of the Soyuz U that carries the 
Progress and the Soyuz FG for the crew vehicles are realized, 
the long-term effects on the ISS will be minimal. The last few 
Space Shuttle flights, and especially STS-135, were able to 
deliver consumables, spares, utilization hardware, and samples 
to provide margin through calendar year 2012.
    The biggest concern at this time is the ability to return 
to the full complement of six crewpersons onboard the ISS as 
soon as possible to maximize the utilization for the United 
States. The Soyuz FG booster used to launch the Soyuz TMA crew 
vehicles is a variant of the Soyuz U, which experienced the 
failure, and its launch resumptions will depend on the 
successful launch of Progress 45P on October 30, 2011, as Mr. 
Gerstenmaier has outlined. If that launch is successful, and I 
have every confidence that it will be successful, the next crew 
will be launched on or about November the 13th, and the ISS 
will return to six-person crew on December 26, 2011.
    The next question for your view is ``Is Russia's return to 
flight adequate, effort adequate, and what do you consider the 
top risks to operational status?'' With regards to the adequacy 
of the Russian return to flight effort, I have not received 
briefings on the activity or results of the Russian 
Investigation Commission concerning this recent failure. 
However, Mr. Gerstenmaier recently received the briefings from 
the Russian experts in Moscow, and I feel the best use of our 
time would be for Mr. Gerstenmaier to respond to that question.
    I would like to comment on the reliability of the RD-0110 
engines used on those upper stages of the Soyuz launch vehicle. 
Out of a block of six engines, five are flown and one is test 
run on a normal third-stage burn duration of approximately 240 
seconds and then inspected. And prior to this first failure, 
there has been a total of over 1,800 RD-0110 engines that have 
flown and an additional 360 engines that have undergone the 
240-second test run. This equates to a total of 2,160 RD-0110 
engines that have been successfully operated.
    Although not directly involved in this investigation, I 
would like to share a perspective of the program. In 1999, I 
was asked by the administrator of NASA and the head of 
Roscosmos to engage in a full understanding of the Proton 
second-stage engine failure that had two Proton failures in a 
row, and the next one up would be our Service Module, which is 
the key to the ISS as far as the controllability.
    Specifically, we wanted to have the co-chairs of the U.S. 
and the Russian Commission review this rocket engine failure, 
including corrective action to be taken, safety, reliability, 
quality assurance processes which were to be implemented prior 
to that Proton launch. The trust and respect we had developed 
through our years of our Joint Commission work resulted in a 
very thorough, open, and comprehensive briefing on the failure 
of the Russian Proton vehicle, in the investigation process, 
and in the correction.
    I think it is very significant that we were taken to 
Voronezh; we were the first Americans, I think, ever to visit 
there and possibly the first foreigners. They have showed us 
the production line, the actual drawings of the spacecraft, and 
they showed the actual engine they had recovered, the failure 
modes occurred there, and also they ran one to simulate that. 
So that was very unique. They were very open in the corrective 
action, and fortunately, all those Protons that work for the 
Space Station put the elements up there correctly.
    So after nearly 40 years of continuous and close working 
relationship with the Russians and their space program, I can 
attest to their thorough and complete approach to problem 
solving and their robust manufacturing.
    The last question, I will go ahead very rapidly, 
contingency plan adequate to ensure safe operations for the 
ISS. NASA already has exercised the first steps of the 
contingency plan. The plan was defined and formalized as a 
result of the Columbia accident investigation, so the ISS 
program is well versed in dealing with this type of 
contingency.
    And, Mr. Chairman, in addition to the comments I have just 
given, I would like to submit for the record written statement 
and Attachment A, a summary of the Commercial Re-Supply 
Services Review recently conducted by the ISS Advisory 
Committee and the Aerospace Safety Advisory Panel. This review 
was co-chaired by Admiral Dyer and myself at the request of Mr. 
Gerstenmaier to review the status of these two CRS contractors, 
Orbital Sciences Corporation and the Space Exploration 
Technology Corporation.
    Mr. Chairman, thank you and the Committee for giving me the 
opportunity to be here today, and I will be available for any 
questions.
    [Attachment A may be found in Appendix 2.]
    [The prepared statement of Lieutenant General Stafford 
follows:]
   Prepared Statement of Lieutenant General Thomas P. Stafford, USAF 
                                (Ret.),
        Chairman, International Space Station Advisory Committee

    Thank you, Chairman Palazzo, Ranking Member Costello, and Full 
Committee Chairman Hall for that warm introduction, and to the 
Committee for the opportunity to once again express my personal views 
and concerns at this hearing to review the impacts of the recent Soyuz 
launch vehicle failure on the safe operation and utilization of the 
International Space Station (ISS). I will attempt to answer the 
questions provided in your letter of invitation from the standpoint of 
my position as the advisory committee chairman and former astronaut. As 
you all know, I have had the unique experience of working with the 
Russians during the era of the Soviet Union as a member of the Apollo-
Soyuz Test Program. As an American astronaut, I joined with our Russian 
colleagues and was afforded an opportunity to view their space program 
up close alongside their best engineers and technicians. As a result of 
that successful joint program, NASA and ROSCOSMOS were able to join 
again to operate together in space with the Shuttle-MIR program 
culminating in our successful partnership on ISS. Throughout that long 
partnership, I continued to observe and assess the Russian space 
program and am delighted to share my thoughts.
    If the proposed launch schedules of the Soyuz U and Soyuz FG launch 
vehicles are realized, the long-term affect on the ISS operation will 
be relatively minor. The last few Space Shuttle flights, and especially 
STS-135 were able to deliver consumables, spares, utilization hardware 
and samples to provide margin through CY 2012. The bigger concern at 
this time is the ability to return to a full complement of six 
crewpersons onboard the ISS as soon as possible to maximize utilization 
for the United States. The Soyuz FG booster used to launch the Soyuz 
TMA crew vehicles is a variant of the Soyuz U which experienced the 
failure, and its launch resumption will be dependent on the successful 
Soyuz U launch of Progress 45P on October 30th. If that launch is 
successful--and I have every confidence it will be--the next crew will 
be launched to the ISS on or about the 13th of November and the ISS 
will return to six-person crew on 26 December, 2011.
    With regard to the adequacy of the Russian return to flight effort, 
I have not received briefings on the activity or results of the Russian 
Investigation Commission regarding the recent (24 August 2011) failure 
of the Soyuz U carrying the Progress M-13M/45P logistics vehicle. 
However, Mr. Gerstenmaier recently received these briefings from the 
Russian experts in Moscow, and I feel the best use of our time today 
would be for me to yield the response of this question to him. I would 
like to comment on the reliability history of the RD-0110 engines used 
on the Soyuz launch vehicles. Out of a block of six engines, five are 
flown and one is test run for the full nominal third-stage burn 
duration of 240 seconds, and then inspected. Prior to this first 
failure, there have been a total of 1,800 RD-0110 engines that have 
flown, and an additional 360 that have undergone the 240-second test 
run. This equates to a total of 2,160 RD-0110 engines that have been 
successfully operated. Although not directly involved in this 
investigation, I would like to share a perspective. In 1999 I was asked 
by the Administrators of NASA and Roscosmos to engage in a full 
understanding of the Proton launch failure investigation. Specifically, 
to have the Joint U.S.-Russian Commission, which I co-chair, review the 
completed Russian investigation on the causes for the Proton booster 
rocket failures in 1999. This included the corrective action to be 
taken, and the safety, reliability, and quality assurance processes 
which were to be implemented for the Service Module (1R) launch 
vehicle. The trust and respect we had developed through our years of 
Joint Commission work resulted in very thorough, open, and 
comprehensive briefings on the failure of the Russian Proton launch 
vehicle, in the investigation process, in the corrective actions taken 
to preclude a repeat of the failure, and of the extensive retesting of 
hardware to be used for flight.
    With nearly 40 years of continuous and close working relationship 
with the Russians and their space program, I can attest to their 
thorough and complete approach to problem solving, and to their robust 
manufacturing and test program philosophy.
    As for the impact to the U.S. associated with the Soyuz launch 
vehicle not being able to return to flight, I would submit that today, 
there is no other vehicle in the world capable of delivering crews to 
the ISS other than the Soyuz TMA crew spacecraft.
    In response to your question regarding contingency plans, the 
answer is yes, and in fact NASA is already exercising the first steps 
of the contingency plan. This plan was refined and formalized as a 
result of the Columbia accident investigation so the ISS program is 
well versed in dealing with this type of contingency. The ISS can be 
maintained in orbit without a crew for a time. The critical systems for 
ensuring safe operation of the ISS are all able to be controlled from 
the ground and designed with robust redundancy should an anomaly occur. 
It is my opinion that at this time adequate contingency plans are in 
place to ensure the continued safe operation of the ISS.
    Mr. Chairman, in addition to the comments I have just given, I 
would like to submit for the record, as Attachment A, a summary of the 
Commercial Resupply Services review recently conducted by the ISS 
Advisory Committee and the Aerospace Safety Advisory Panel. This review 
was Co-Chaired by Vice Admiral Dyer and myself at the request of the 
Associate Administrator for Space Flight Operations Mission 
Directorate, to review the status of the two Commercial Resupply 
Services (CRS) contractors for the ISS--Orbital Sciences Corporation 
(Orbital) and Space Exploration Technologies Corporation (SpaceX). The 
focus of this meeting was the status of the SpaceX ``Dragon'' and the 
Orbital ``Cygnus'' logistics vehicles.
    Mr. Chairman, I thank you and the Committee for giving me this 
opportunity, and thank you for all you do to advance American human 
space flight.

    Chairman Palazzo. For your statements for the record 
without objection, so ordered, and thank you for your 
testimony.
    I now recognize our final witness, Vice Admiral Joseph Dyer 
of the United States Navy, retired, and current Chairman, 
Aerospace Safety Advisory Panel.

     STATEMENT OF VICE ADMIRAL JOSEPH W. DYER, USN (RET.),

              CHAIRMAN, AEROSPACE SAFETY ADVISORY

    Admiral Dyer. Thank you, Chairman Palazzo and Acting 
Ranking Member Costello. It is a pleasure today to represent 
the perspective of the Aerospace Safety Advisory Panel. Given 
that Mr. Gerstenmaier and General Stafford have to a large 
extent covered the details of your questions and given the fact 
that I am from North Carolina and speak with that kind of 
speed, I will abbreviate and summarize my remarks.
    I would add that the panel reconstituted in 2003 and 
changed to the NASA Authorization Act in 2005, has us reporting 
both to the Administrator of NASA and to the Congress. So we 
are happy to be here today in keeping with that--the second 
part of our charter and direction.
    I would offer an important caveat much as General Stafford 
did. While the panel follows the safety aspects of joint 
Russian and U.S. space activities, we have had no direct 
contact with the Russian Space Program. Our insight and 
information comes from NASA and is by definition second hand. 
With that said, we view the information related to Russian 
operations as creditable and of high fidelity.
    We do follow NASA's analysis and decision making regarding 
the cooperative program with the Russians. This includes 
activity related to the resumption of the Soyuz flight and U.S. 
astronaut transport to the International Space Station.
    The ASAP's role in monitoring safety issues arriving from 
cargo and crew and re-supply has been the focus of the panel 
certainly over the last two years, and you will find it 
addressed in our annual reports, which I have included with our 
written statement. But it has been especially the focus since 
the retirement of the Space Shuttle. In fact, we have had panel 
members at the SpaceX facility earlier this month, and we will 
be visiting with the Orbital folks out near Dulles Airport here 
in Washington at the end of this week.
    With regard to return to flight, we share the perspective 
that you have heard from both General Stafford and Mr. 
Gerstenmaier, but I would especially like to highlight the very 
positive relationship that Bill Gerstenmaier has built in his 
dealings with the Russians. To a very great extent this 
relationship building has enabled NASA's timely understanding 
of the Russian investigative status, and we are confident that 
the two launches anticipated, one of Progress and one of--the 
Soyuz launch hopefully in mid-November, will put the current 
issues to rest and return us to a steady-state operation.
    Likewise, we believe that the issue associated with the 
third stage of the Progress engine is a quality statement 
rather than a design flaw, and we note that the Russians have 
put in place significant quality control processes and 
activities.
    We likewise have no concerns with regard to the reduction 
of crew aboard ISS. We would note that following the report for 
an extended period of time, when the Shuttle was down, the 
Station was operated with only two people aboard, and that we 
have had six only since improvements to the life support 
systems.
    It is a tribute to the Soyuz System and its unusual 
reliability that the risk of running out of shelf life while 
docked to the ISS has not been an active topic with the ASAP. 
To put that in simpler terms, we miss it. The ability to get to 
higher orbit and to get an extended period of operation, even 
in an unmanned status if necessary, for one year to as much as 
two years is noted with some good comfort.
    In summary, sir, the ASAP has been and continues to be 
actively engaged in safety issues arriving from the full 
spectrum of crew and cargo, including both commercial space as 
well as the Soyuz activity. Via NASA, the ASAP is monitoring 
the progress being made in return to Soyuz flights and the 
ability to support both crew and logistics. We should all say 
thank you to the crew of 135 for their laying up of stores 
aboard the Station and, from a logistics perspective, the 
ability of the Station to operate until at least the end of 
next calendar year.
    Two prime safety concerns, potentially flowing from a 
disruption of the Soyuz Transport System, the first is the risk 
to the public of an unplanned or uncontrolled ISS de-orbit and 
associated debris. The second is the loss of Station due to 
stability control and the de-manning of those folks necessary 
to provide onboard maintenance. Both risks have been mitigated, 
and the Station has potential, we believe, to operate very 
safely.
    The information provided by the NASA Human Exploration and 
Operations Mission Directorate indicates that the Russians have 
been forthcoming with engineering analysis, safety, and mission 
assurance information related to the return of flight and the 
Soyuz status. It is the sharing and transparency that is 
necessary, and if sustained, it should be sufficient to support 
a decision to resume astronaut transportation hopefully by the 
end of November.
    The ASAP's engagement with anomalies in the Russian Systems 
have, as I indicated, been second hand, but we follow it 
closely and find general comfort and a way forward.
    Thank you, sir.
    [The prepared statement of Admiral Dyer follows:]

     Prepared Statement of Vice Admiral Joseph W. Dyer, USN (Ret.),
                  Chairman, Aerospace Safety Advisory

    Chairman Palazzo, Acting Ranking Member Costello, and distinguished 
Members, thank you for the opportunity to appear before you today. As 
requested, I would like to present the NASA Aerospace Safety Advisory 
Panel's (ASAP's) perspective regarding ``The International Space 
Station: Lessons from the Soyuz Rocket Failure and Return to Flight.''
    The Aerospace Safety Advisory Panel (ASAP) was originally 
established under Section 6 of the NASA Authorization Act, 1968 (42 
U.S.C. Sec.  2477). In 2005, the ASAP authority was modified under 
Section 106 of the NASA Authorization Act of 2005 (P.L. 109-155).
    The ASAP's charge is, among other things, to advise the NASA 
Administrator and the Congress with respect to the hazards of proposed 
or existing facilities and proposed operations with respect to the 
adequacy of proposed or existing safety standards, and with respect to 
management and culture related to safety.
    The panel comprises individuals with deep knowledge and broad 
experience in the safety aspects of major technical undertakings. 
Membership includes individuals with backgrounds in government, 
commercial industry and some with combined leadership experience in 
both camps. The panel members' biographies can be found via 
www.hq.nasa.gov/asap/bios.
    I must first offer a caveat--while the panel follows safety aspects 
of joint Russian-U.S. space activities, we have had no direct contact 
with the Russian Space Program. Our insight and information comes from 
NASA and is by definition ``second hand.'' With that said, we view the 
information related to Russian operations we receive as creditable and 
high fidelity.
    We do follow NASA's analysis and decision making regarding the 
cooperative program with the Russians; this includes the activity 
relating to resumption of the Soyuz flights for U.S. astronauts' 
transport to the International Space Station.

ASAP's Role in Monitoring Safety Issues Arising From Cargo and

Crew Resupply to the International Space Station (ISS)

    The ASAP closely examines activities associate with the ISS and has 
addressed both crew and cargo commercial transport in our last two 
annual reports. I've included those reports in our written submission. 
Over the years, NASA has sharpened and improved its risk management 
processes. With the advent of commercial space, the ability of NASA to 
effectively understand and manage the total scope of risk becomes much 
more difficult. Timely insight in the face of contractual and 
intellectual property constraints will be critical moving to the 
future. To believe that commercial space flight removes risk from 
NASA's programs is, at best, wishful thinking. Since the Shuttles' last 
flight, commercial transport and associated risks have been the 
centerpiece of the panel's focus. In our latest engagement, members of 
the panel visited the SpaceX facilities during the first week of 
October and we will spend this coming Friday with Orbital.

ASAP and the Soyuz Return to Flight

    On 24 August 2011, Russian Progress M-12M launched for the 
International Space Station (ISS). The third stage of Progress' Soyuz-U 
rocket failed and prevented the rocket from achieving orbit. The 
failure grounded both the Soyuz-U rockets used to launch cargo, and the 
Soyuz-FG rockets used to launch crews to the ISS, since both rockets 
share very similar third stages.
    NASA's Human Exploration and Operations Missions Directorate has 
conscientiously communicated with the ASAP following the August 
incident. We've always found that communication to be forthright and 
transparent; NASA has shared their evolving understanding and has not 
been reluctant to share both what is known and unknown. We take faith 
in what we've heard and note the trusting relationship Mr. Gerstenmaier 
has built with the Russians. To a great extent this relationship 
building has enabled NASA's timely understanding of the Russian 
Investigation status. It appears to the ASAP that the cause of the 
third-stage failure has been identified, is being verified, and actions 
are underway for a safe return to flight in time to preclude a de-
crewing of the ISS. The Russians plan to launch another Progress 
mission on or about 30 Oct. If successful in verifying fixes to the 24 
August failure, NASA and the Russians anticipate a 13 November Soyuz to 
the ISS. A November success will put to rest the current predicament.
    Our understanding of the third-stage engine's failure mode involves 
the normally fuel rich Gas Generator mixture which powers the engine 
turbine. A blockage in the fuel line appears to have reduced fuel flow 
by 30%, creating an oxygen-rich mixture that caused the Gas Generator 
to speed up and eventually burn through its exhaust duct. Engine 
controllers sensed the pressure dropping and opened the oxygen flow, 
further exacerbating the problem. We note that this engine was designed 
in the 1950s and uses a mechanical fuel balancing system that has 
advantages as well as disadvantages compared to digital systems used in 
engines being designed today.
    The above failure mode is clearly a quality escapement, rather than 
a design flaw. We understand that the Russians have added significant 
quality control processes to prevent a fuel system contamination 
recurrence that was experienced on the last flight. They have two and 
three independent inspectors checking each operation and are 
videotaping every step in the process to ensure it is done correctly. 
NASA sent a team to Russia to monitor the successful test of an engine 
returned from a third-stage assembly. They will conduct a formal Flight 
Readiness Review before the next Progress and Soyuz launches to 
formalize the agency's review of the investigation and readiness for 
flight. The ASAP will closely monitor these reviews.
    We note that thankfully, unlike the Space Shuttle, Soyuz has an 
abort capability. This capability is available throughout its launch 
trajectory. While it would have been ``exciting,'' it is believed that 
this system is capable of recovering a crew in the event of an engine 
failure such as experienced on the last Progress launch. We've also 
been impressed with the contingency planning NASA and the Russian Space 
Agency have undertaken to mitigate the risk to the ISS and to the 
public if it is necessary to de-crew the station.

NASA Consultation With ASAP Following Flight Anomalies

    Since the ASAP was reconstituted in 2003, the ASAP has been deeply 
involved with each grounding incident and closely engaged in all 
significant technical and programmatic issues affecting operations. You 
may recall that the Return to Flight Committee formed following the 
conclusion of the Columbia Accident Investigation Board handed off 
outside oversight to the ASAP prior to resuming Space Shuttle 
operations. Then, as now, we have been routinely invited to participate 
in the Flight Readiness Reviews and other decision forums. The panel 
has been included in the dialogue on all serious anomalies--sometimes 
via NASA's invitation and sometimes at our own insistence. We have 
rarely found fault with NASA's communications and on those rare 
occasions when information was slow in coming, we've had strong support 
from the Administrator to gain the access and insight we believe 
necessary. This has never been better than with the current 
Administrator, Mr. Bolden. He was, after all, an ASAP member prior to 
his appointment.

Safety Concerns Resulting From Reduction in Crew Aboard the ISS

    We are confident the ISS and crew aboard can operate safely with 
only three crew members and note this was the norm prior to life 
support system improvements which allowed the crew size to grow to six. 
During the time the Shuttle was grounded following the Columbia 
accident, the crew size was at two. While the day-to-day 
experimentation and work ancillary to operating the station may be 
impacted, a crew of three can safely fly.
    Likewise, the necessary stores and supplies required for extended 
operation are aboard, and we believe the station could operate with a 
reduced crew of three until late calendar year 2012.
    The Soyuz capsule left docked aboard the ISS provides the crew 
return mechanism and serves as a ``life boat'' for recovery in the 
event of emergency. It is not logistics but the 200-day ``use by'' 
requirement of the of the docked Soyuz capsule that is the critical 
factor in the potential necessity to remove the crew and to leave the 
ISS unmanned. (Specifically, it is hydrogen peroxide propellant which 
is running out of life.) The delay in the planned Soyuz flights means 
that the capsule docked at the ISS is at risk of aging out before a 
replacement capsule can be transported to station. The U.S. policy has 
been to never leave a crew on board Station without a rescue vehicle 
that is fully certified and ready to use. This would require sending 
the last three crew members home and leaving Station without crew if a 
replacement Soyuz and crew is not launched before approximately mid-
November. It is a tribute to the Soyuz system's usual reliability that 
the risk of running out of ``shelf life'' while docked to the ISS was 
not an active topic at NASA nor was it an ASAP focus. A more 
prophylactic and energetic risk assessment would have been helpful. To 
put that in simpler terms--we (the ASAP) miss it.

NASA's ISS Contingency Plans

    NASA and the Russian Space Agency have developed a number of plans 
which have potential to both protect the public from an unplanned and 
potentially uncontrolled de-orbit and sustain the ISS life on orbit.
    Luckily, it would take multiple malfunctions to cause serious 
problems for an unmanned Station. An example would be loss of cooling 
on BOTH the U.S. and Russian sides of the station, which could then 
cause loss of gyroscopes and the resulting loss of attitude control. 
NASA is working under the assumption that loss of attitude control 
would be catastrophic, but it may not be, as there are some recovery 
techniques that may be available, depending on the Station's response. 
The Probabilistic Risk Assessment for the Station tells us that having 
crew on board is an important mitigator for such hypothetical failures.
    NASA already has contingency plans in place that would respond to 
the first signs of loss of redundancy in the critical systems by 
boosting the ISS to a higher orbit. This would buy additional time to 
respond to a potential loss of the remaining critical systems. At the 
existing orbit, they believe they would have approximately one year to 
respond to a station anomaly before it reentered the atmosphere. With 
the additional orbit boost that would be implemented, they believe they 
can extend this window to somewhere from 18 to 24 months.
    The ASAP has previously identified to NASA the desirability of 
formalizing the approaches that could be used in the future to safely 
deorbit the ISS whenever that might eventually become necessary, 
whether at end of mission or upon an anomaly before that time. NASA is 
working with the Russians to formalize plans for such an eventuality.
    NASA and our Russian partners have spent over a month meticulously 
going over exactly how to leave the Station configured if they must de-
crew. They have looked at all systems and maintenance issues. They have 
gone through each and every Orbital Replacement Unit and identified its 
condition and optimum configuration. They're treating this as a real 
possibility. As AA Bill Gerstenmaier often says, ``they hope for the 
best, but plan for the worst.''

Summary

    In summary:

    <bullet>  The ASAP has been, and continues to be actively engaged 
in safety issues arising from cargo and crew resupply to the ISS.

    <bullet>  Via NASA, the ASAP is monitoring the progress being made 
in returning the Soyuz to flight status and enabling the Russians to 
provide crew and logistics transport to the ISS.

    <bullet>  The ASAP, reconstituted in 2003, has been closely 
consulted regarding decisions on resuming missions following a flight 
anomaly.

    <bullet>  The two prime safety concerns, potentially flowing from a 
disruption of Soyuz transport capability, are, (1) Risk to the public 
from an unplanned and uncontrolled ISS deorbit and associated debris; 
and (2) risk of loss of the Station due to stability control failure 
following de-manning and the lack of crew to provide maintenance 
support. Both risks are mitigated given the ability to position the 
station in a higher orbit (and thereby buying time to find a solution) 
and the nominal ability to control station stability from the ground.

    <bullet>  Information provided to the ASAP by NASA's Human 
Exploration and Operations Missions Directorate indicates the Russians 
have been forthcoming with the engineering analysis, safety and mission 
assurance information related to the efforts to return Soyuz to flight 
status. If the sharing and transparency is sustained, it should be 
sufficient to support a decision to resume the astronauts' transport to 
the ISS. Collectively, NASA and the Russians are hoping for the best 
but preparing for the worst.

    <bullet>  The ASAP's engagement with anomalies in the Russian 
System have been ``second hand'' via NASA's Human Exploration and 
Operations Missions Directorate and not ``first person'' as is the case 
with NASA and commercial space contractors.

    I thank you for the opportunity to testify today.

    Chairman Palazzo. Thank you. I thank the panel for their 
testimony. I would like to remind Members that Committee rules 
limit questioning to five minutes.
    The Chair will at this point open the round of questions. 
The Chair recognizes himself for five minutes.
    Pretty much I am going to share many of the same concerns 
that Mr. Costello addressed in his opening statement. Mr. 
Gerstenmaier, Lieutenant General Stafford, and Vice Admiral 
Dyer, can you elaborate on the level of insight and influence 
that NASA and the Aerospace Safety Advisory Panel have into 
Russian return to flight plans? You all kind of touched on 
that, so you don't really have to spend much time but just 
touch on it again.
    Mr. Gerstenmaier. What we have done within NASA is myself 
and the program manager, we both went to Russia, and we had 
first-hand interchange with the Commission that the Russians 
put in place to do the failure investigation. They showed us 
detailed plots, diagrams, their logic for why they thought the 
most likely failure was what it was, and they also explained to 
us other items on the fault tree or other potential causes and 
why those were not considered credible in their mind. They 
spent several hours with us in a detailed discussion and review 
of that information.
    We then took that information back with us to the U.S. We 
formed a team of experts from the Marshall Spaceflight Center 
who do rocket propulsion tests. We brought in our safety 
personnel, we brought in our engineering personnel, we provided 
them with that information, and they took essentially an 
independent look at that same information and their 
understanding of the Russian engines from essentially the open 
source information that is available on those engines, and they 
did kind of a background check to make sure that the 
conclusions the Russians were drawing were reasonable, and we 
agreed with those. We completed that review today within the 
agency, and we agree with the basic Russian finding. So that is 
the level of insight we have.
    We also had a team of experts that got to go to the 
Voronezh engine manufacturing facility, and they got to 
actually watch an engine test firing of 280 seconds. It was an 
engine that was returned from the field, and they actually got 
to witness that engine testing and the test firing and interact 
with the personnel that actually manufacturers the engines.
    So we have very good insight into the Russian system and 
their anomaly investigation, and it is pretty much standard 
with what we would do of an investigation of this type.
    Lieutenant General Stafford. Mr. Chairman, as Mr. 
Gerstenmaier has outlined, with respect to the recovery from 
this incident follows the same type that we went into great 
detail on the Proton failure, and the Advisory Committee 
monitors through the program office, and Mr. Gerstenmaier, the 
activities there, and then once a week General Joe Engle, who 
is a technical advisor for the committee, has a joint 
conference call with people from Roscosmos and our counterparts 
there.
    So we are kept advised on a weekly basis of that, but the 
lead for this goes back to the program office, and from all the 
details we have seen before and being in the manufacturing 
plant. You have in-depth committees that can review this, 
experts that go through it, and this is the same as what we 
observed as before, sir.
    Chairman Palazzo. Do you see any weaknesses in the process, 
or do you have any suggestions on how we might be able to 
improve the process?
    Mr. Gerstenmaier. Again, I think we have a very strong 
relationship with the Russians. If there is something that we 
needed to do differently or we wanted them to run an extra 
test, we have the ability to request that of the Russians and 
to get their cooperation. They don't necessarily have to agree 
with our activities, but I think if we have pretty strong 
technical rationale, they would agree to do additional testing 
or additional investigations based on what we saw.
    So I think it is a pretty good relationship back and forth. 
Again, we have been given access to what we need to see. We got 
to see the information that we needed to make sure that we have 
the knowledge to go ahead and proceed, but ultimately the 
Russians are the experts in this area. It is their engines, it 
is their design. We have insight into that, but we ultimately 
have to rely upon the Russians basic analysis.
    Lieutenant General Stafford. Mr. Chairman, I see at this 
time no apparent weaknesses in what the Russians are doing. 
Again, this is based on the experience I have had with them 
over the years and the information we received from the program 
office and Mr. Gerstenmaier and our contacts.
    Admiral Dyer. Mr. Chairman, the insight afforded the ASAP 
as an outside advisory panel is as it should be. We have been 
supported strongly by the Administrator, and I would point out 
that the Administrator was a prior member of the ASAP before 
taking over the leadership at NASA. So as you would perhaps 
expect, we have had the very strongest support and deepest 
insight that we might need.
    By way of reference, the ASAP members will be participants 
in the flight readiness review where NASA makes the final 
decision to go forward with future Soyuz operations.
    Chairman Palazzo. Thank you. I now recognize the Ranking 
Member, Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman.
    The title of this hearing, of course, is Lessons from the 
Rocket Failure and Return to Flight. With the fact in mind that 
we are moving, NASA is moving to commercial, let me ask a 
couple of questions for the record, Admiral Dyer.
    I understand from your testimony that ASAP members have not 
met with Russian spaceflight officials and that you have not 
visited their spaceflight facilities. Is that correct?
    Admiral Dyer. That is correct, sir. As I indicated, our 
insight is second hand but, we believe, of high fidelity.
    Mr. Costello. Okay. My concern is, as we move forward to 
going to a commercial partnership, that we have an independent 
source and an independent review, and as I understand from your 
testimony today that basically what you and your ASAP members 
are basing your information, solely on what is coming from 
NASA, and you really do not have an independent source to 
verify what NASA is telling you. Is that correct?
    Admiral Dyer. That is correct, sir.
    Mr. Costello. Does that concern you for the future, and I 
would throw this question out to all of the witnesses here 
today. Should there be an independent source that is verifying 
as we go forward with commercial spaceflight and a partnership 
with the commercial folks?
    Admiral Dyer. Well, the ASAP's insight into space 
activities, operation facilities, et cetera, has been deepest 
with the NASA programs of record. It is very deep, and it is a 
close focus of ours with regard to commercial space activities 
from U.S. firms. It is really uniquely the Russian activity, 
complicated by sovereign nation and distance, where we lack 
direct insight, sir.
    Mr. Costello. And I trust that the information that we are 
getting from NASA concerning this investigation and, again, we 
are looking for lessons learned so that we can move forward 
when we partner with the commercial side that we have learned 
lessons, and we, in fact, can know as we are going forward what 
we are doing and the mistakes that have been made and what 
should be corrected.
    But let me throw out to General Stafford, should there be 
an independent review or an independent source other than just 
NASA?
    Lieutenant General Stafford. Well, Mr. Costello, in the 
past I have given my opinion that the independent committee 
that I have had the honor to chair has been a very positive 
with its inputs to NASA and helped them in the solving of 
problems, particularly at the start of this program to get it 
going forward, and we give our opinion.
    In fact, Mr. Gerstenmaier, I would like to compliment Mr. 
Gerstenmaier. It was the result of this committee observing the 
way that the program had slipped out that it was unanimous from 
our opinion, we had told Mr. Gerstenmaier nearly 2-1/2 years 
ago, three years ago, that we thought it was a requirement that 
those two shuttles that were there as contingency should be 
flown because without those shuttles, we could be in high risk 
of not maintaining six persons onboard that Station.
    And finally, I told Mr. Gerstenmaier that it is our opinion 
that within 12 to 18 months after the last shuttle would fly we 
would have a higher risk by far of maintaining six people. So I 
appreciate the help that Mr. Gerstenmaier did and what this 
committee did with the 2008, Authorization Act and also what 
Admiral Dyer said, thank the crew again that is here for flying 
that mission because right now if those two shuttles hadn't 
gone, we would have been very short on supplies.
    Mr. Costello. General Stafford and Admiral Dyer, let me ask 
overall what commercial issues need to be resolved before any 
commercial crew vehicles can be baselined for ISS use?
    Lieutenant General Stafford. Well, this is a very in-depth 
detail. I don't know that we could cover it in this period of 
time, Mr. Costello. To meet all the requirements for safe 
operation there is going to be a very detailed effort, and 
there is already, I think, in-depth discussion that it should 
be conducted under the Federal Acquisition Requirements, which 
I certainly agree with.
    Then there is the other issue about, ``commercial.'' Is 
there a market out there? I know that Mr. Mike Hawes when he 
was at NASA had the Aerospace Corporation conduct a study that 
looked at the market that would be out there, and I have not 
read the study. I have seen the executive summary, but they 
said that basically the government was the market, and so that 
becomes a question about commercial.
    Mr. Costello. Thank you. Mr. Chairman, thank you very much.
    Chairman Palazzo. Thank you. I now recognize Chairman Hall.
    Mr. Hall. Thank you, sir. I guess I would ask Mr. 
Gerstenmaier, in your view, has ramping up the Soyuz System to 
accommodate four missions a year put any stress on the 
Russians, and if so, kind of tell us something about that.
    Mr. Gerstenmaier. Again, I think the increase in flight 
rate on the Russian side has put some scheduling pressure on 
the Russians to deliver these flights. We have been watching 
that activity to make sure that there is nothing that is a 
problem to us. We specifically even looked at this particular 
problem with the Progress to make sure that there wasn't 
systemic problems or a problem that occurred from the fact that 
they are increasing the flight rate.
    And I would add one other clarification to the previous 
answer was the ASAP doesn't have an interface to the Russians, 
but General Stafford interfaces with Raikunov of the Russian 
Space Agency, and that is an independent check where they can 
actually get data independent of the NASA team on the Russian 
failures and insights.
    So there is an independent source available to NASA through 
Tom's meeting and the group that he chairs as the ISS Safety 
Task Force.
    But your point, I think, is a consideration we need to 
watch. We see no evidence of the schedule concerns with the 
Soyuz increase, but it is something we need to continue to 
watch and get a good handle on.
    Mr. Hall. How much continuing to watch can we do? If we put 
a lot of stress on them, do you think there is any chance of 
them upping their charge to us?
    Mr. Gerstenmaier. We have negotiated those prices, and 
those prices are fixed, and they are in place. The Russians 
have decided to go ahead and build a backup Soyuz vehicle and a 
backup Progress vehicle. So they recognize that there could be 
a problem in their supply line, and they wanted to have one 
additional vehicle available to support. So on their own they 
have gone ahead and funded the addition of an additional Soyuz 
as a backup and an additional Progress vehicle as a backup as 
well.
    So, again, they look at the overall operational scenario. 
They look at where there needs to be margin, and on their own 
they added some margin to make sure there is enough robustness 
to keep the Space Station fully occupied and fully functional.
    Mr. Hall. Thank you, sir. I yield back my time.
    Chairman Palazzo. I now recognize Ms. Adams from Florida.
    Mrs. Adams. Thank you, Mr. Chairman.
    Mr. Gerstenmaier, I want to make sure I understand just 
where our human spaceflight is and go from there. Just so we 
have our baseline. At this moment there is no American access 
to the ISS via American rocket built by an American workforce 
to bring American astronauts to and from the Station. We will 
not have this capability for at least a couple of years, 
probably longer, and our great hope is at this point a rocket 
that just crashed landed due to some error in the manufacture 
of the rocket. Does that about sum it up?
    Mr. Gerstenmaier. That is the current status.
    Mrs. Adams. I have a few questions, and I want to run 
through them quickly so that I can get them all. The hearing 
has focused on problems associated with U.S. relying on Russian 
providers to transport our astronauts. I am wondering if there 
is a lesson to be learned here about reliance on foreign 
providers now that NASA has settled on a plan for our Next 
Generation Human Spaceflight systems.
    For example, shouldn't the final SLS design and procurement 
decisions favor as much as possible U.S.-made systems and 
components so we don't get into a situation where a failure or 
problem with a foreign company can impede the development and 
operation of the SLS?
    Mr. Gerstenmaier. I think the important consideration is to 
have a similar backup capability for those critical functions. 
As when we had the Columbia tragedy, it was extremely important 
that the Soyuz was there and able to back up the loss of 
ability to transport crew to and from Space Station. The Soyuz 
backed that up and allowed us to keep two crew members onboard 
Space Station, keep Space Station functional during a very 
critical period of its time.
    So I agree with the idea of the dysfunctional redundancy, 
and we can do that a variety of different ways.
    Mrs. Adams. On the cover of Space News this week is a story 
about delays of the launch of the test flights for the Falcon 9 
and Taurus 2. Can you explain the reasons for these delays and 
what NASA is doing to facilitate a quick return to reliable 
launch schedules for both of these providers?
    Mr. Gerstenmaier. Yeah. Both of those providers are new 
entrants into the cargo world. They are going through normal 
startup transience that typically aerospace companies go 
through as they bring a new system online. In the case of 
Orbital, they are building a new launch site at Wallops. There 
is some startup transience associated with that, getting the 
new systems in place. They have also experienced an engine 
failure that they had to work through and understand the 
consequence of that engine failure.
    In the case of the SpaceX Corporation, they are going 
through some software testing that is discovering some 
concerns. They recently completed some thermal vacuum testing 
which was very highly successful. They are doing some 
electromagnetic interference investigations and some other 
testing. There are minor problems being identified with those. 
With software, they are discovering some problems that are 
normal, but they are normal transience that we would expect to 
see in that development activity.
    And as we have discussed earlier, the reason we requested, 
and luckily got, STS-135 was it gave us some margin so we have 
a period of time for these new commercial cargo providers to 
come on line. They have until the end, basically, of 2012, to 
deliver cargo. We think there is plenty of time in the overall 
system. We want them to be ready to fly when they are ready to 
fly. We don't want to put pressure on them and force them to 
fly before they are ready to fly.
    Mrs. Adams. So NASA is working with them?
    Mr. Gerstenmaier. We are working with them very closely to 
work these issues out and get ready to go fly.
    Mrs. Adams. On September 21, DOD released its annual 
industrial capabilities report to Congress. On page 31 of this 
report, DOD devotes an entire section of NASA disruptions to 
the space industrial base, claiming that the present 
cancellation of the Constellation Program has significantly 
interrupted the industrial base. The report goes on to say that 
NASA had 29 percent of the entire 2009 space budget for the 
Federal Government. Obviously reliable support to the 
International Space Station ensures continued support to our 
national security asset like the rocket industrial base. What 
is NASA doing to mitigate this national security risk?
    Mr. Gerstenmaier. Specifically the plans we have released 
for the space launch system, the heavy-lift launch vehicle, and 
the Orion multi-purpose crew vehicle, both of those plans will 
help stabilize that market. It will allow our contractors to 
understand what our plans are, what hardware we want to build, 
and they can make the appropriate facilities and personnel 
decisions to support that.
    Mrs. Adams. And we were happy to finally see those 
released, that released information.
    Ambassador Bono was in Florida yesterday, and he said, 
``From California to Florida the space industry is strong and 
growing.'' My constituents are still waiting for the shorter 
space gap the President promised at a campaign stop on August 
2, 2008, in Titusville.
    Can you give me some examples of where in Florida the space 
industry is growing and strong?
    Mr. Gerstenmaier. Again, we are moving out on the SLS and 
the MPCV Orion as we have talked about. We are in doing some 
initial welding of the Orion capsule, which will be the test 
vehicle, which will be flown from Florida. So we are starting 
to move out on some of those activities. The mobile launch 
platform, which was built----
    Mrs. Adams. So they have started. We are just not up to 
where we need to be. Correct?
    Mr. Gerstenmaier. We are beginning that process and working 
through the development activities associated with both of 
those vehicles, and it involves the testing and operations in 
Florida.
    Mrs. Adams. My time has expired.
    Chairman Palazzo. I now recognize Mr. Rohrabacher from 
California.
    Mr. Rohrabacher. I thank you very much, Mr. Chairman, and 
let me get a couple of things straight.
    Now, the SLS, when is that scheduled to be complete?
    Mr. Gerstenmaier. Its initial test flight will be 2017, 
December.
    Mr. Rohrabacher. When will it be, actually be prepared for 
a mission?
    Mr. Gerstenmaier. We had the ability to support a crewed 
mission in 2021, with the current----
    Mr. Rohrabacher. 2021, and at this point, please correct me 
if I am mistaken, but the Space Station is not supposed to be 
actually functioning in 2021, is it?
    Mr. Gerstenmaier. Both of those systems are geared for 
beyond low-earth orbit. They are not geared for low-earth 
orbit. We are looking to commercial transportation for----
    Mr. Rohrabacher. Right.
    Mr. Gerstenmaier. [continuing]. Both cargo this year and 
commercial crew in the 2015, 2016 timeframe.
    Mr. Rohrabacher. So all of this talk--I think in the public 
there has been a mistaken impression that the SLS, this huge 
mega rocket that is being built, will have something to do with 
supplying Space Station, and in reality it has nothing to do 
with Space Station.
    Mr. Gerstenmaier. Its goal is to be used beyond low-earth 
orbit for exploration activities----
    Mr. Rohrabacher. Right.
    Mr. Gerstenmaier [continuing]. Beyond low earth.
    Mr. Rohrabacher. Right. So would you characterize the 
Russians--we depended on Space Shuttle, and Space Shuttle is 
gone, and since we lost Shuttle, have the Russians been 
basically operating in good faith with us, would you say?
    Mr. Gerstenmaier. Yes.
    Mr. Rohrabacher. Would the panel agree with that? They 
could have raised the rates on us if they wanted to play 
hardball. Is that right, General?
    Lieutenant General Stafford. Mr. Rohrabacher, from the 
interface I have had with them and the independent committee, 
they have been operating in good faith, and one issue came up 
about raising the price. Again, our commission never gets 
involved with contracts, but the American dollar, 
unfortunately, has been getting weaker, and the Russian ruble 
has been getting stronger. So that would account for some of 
it.
    Mr. Rohrabacher. I see, and I think we should note that the 
Russians have not taken advantage of the situation that they 
could well have taken advantage of, and the Russians are one 
component in a competitive field, meaning once we have our 
other private sector groups, whether it is SpaceX or others 
involved, the Russians will still be there as an option. Isn't 
that the case? As we look forward right now, we are at a very 
delicate moment which the Russians are not taking advantage of 
to bleed us, but in the future when we have Falcon 9 or 
whatever, we will have some real competition up there for 
whatever projects are in low-earth orbit, however.
    And let me ask about--now--don't we have Russian engines in 
Atlas?
    Mr. Gerstenmaier. That is correct. The RD-180 engine is in 
the Atlas 5.
    Mr. Rohrabacher. Okay. So we actually have been working 
very closely with them, probably more than most Americans 
understand.
    Let me ask you about that; can you explain the difference 
between the contract with the Russian Soyuz cargo contract and 
the standard launch services contract for unmanned launches? Is 
there some difference between these contracts with what the 
Russians will get and what our own people will get?
    Mr. Gerstenmaier. For cargo, we have no contracts with the 
Russians for cargo. We previously had purchased some cargo 
space on Progresses, but we no longer do that. We are now 
committed fully to the commercial U.S.-based cargo systems to 
provide the cargo needs for ISS.
    Mr. Rohrabacher. Okay, and do you expect that once we have 
these commercial alternatives that we expect to come online, 
will they be in competition with Russian launch services?
    Mr. Gerstenmaier. Again, I think we will have both needs. 
They will still want to continue to fly their crew to Space 
Station, so they will continue to fly Soyuz crew capsules to 
deliver Russian crew members. We will be flying our U.S. crew 
members and European partners and Japanese partners and 
Canadian partners on commercial U.S. crew transportation 
systems.
    So I would say they are not in competition. There is a need 
for both of those two vehicles to fly to Space Station.
    Mr. Rohrabacher. All right. Yes, sir, General?
    Lieutenant General Stafford. Mr. Rohrabacher, one thing you 
brought up I think is a good point. When you talked about the 
need for other requirements for cargo, say low-earth orbit or 
even geosynchronous, and when you are looking at commodities, 
we are in a globalization type of era, and what we are faced 
with, sir, is the technicians in Samara where they build the 
Soyuz booster, they made $700 or $800 a month. The engineers 
make approximately $1,100 to $1,300 a month. I do not know what 
the Chinese make, sir, but I would assume it is probably a 
little bit less than that, and so when you have to compare that 
for somebody that is just independently wanting cargo lifted 
into space and wants to have a reliable vehicle, they would 
probably go for the lowest cost. And that is what unfortunately 
we are faced with.
    As an example, Mr. Rohrabacher, I talked to Dr. Tom Young 
who used to be the president of Martin Corporation, now 
Lockheed Martin, and when the expendable, the evolved and 
expendable launch vehicle, the ELV, the Atlas and the Delta, 
were started, Martin forecast 30 to 35 vehicles a year that 
would be flown East and West Coast total.
    Mr. Rohrabacher. Uh-huh.
    Lieutenant General Stafford. McDonnell Douglas forecasts 
for their Delta 4 medium and heavy would be 30 to 35 flown. 
Again, most of those, Mr. Rohrabacher, would be commercial. And 
today at this time, unfortunately, the United States government 
has to subsidize ULA about $1.3 billion a year just for 
infrastructure. Then they have the opportunity to buy the 
booster, and today total out of East and West Coast between the 
Atlas and the Delta, sir, there is about seven to eight 
vehicles flown a year. So their forecasts were off about 85 
percent.
    Mr. Rohrabacher. I know I have overextended my limit. Just 
one last thought and that is as we move forward, it seems to me 
that we will have projects like we have with the Station where 
the Russians have their own part, responsibility, and we have 
our responsibility, and that works with us and, for example, 
clearing debris or trying to deal with near-earth objects or 
some of the other space-related projects that we should be 
addressing and have not been addressing for a number of years.
    So thank you very much, Mr. Chairman.
    Chairman Palazzo. I now recognize Ms. Edwards from 
Maryland.
    Ms. Edwards. Thank you very much, also, for your indulgence 
while I got myself together, and I know Mr. Rohrabacher would 
always fill in time for me. I appreciate that.
    I really appreciate this hearing because it is a reminder 
that when I first joined this Committee when I came in 2008, 
and we began really looking seriously at the prospect of losing 
Shuttle capacity, these are many of the same questions that 
were raised about reliability, about our international 
partners, and about safety considerations and what we would do 
to try to make up for the fact that we didn't have our own 
Shuttle capacity.
    And so as we sit here today I am always in a mode of what 
are the lessons that we have really learned from this, and what 
do we need to know going into the future because it does raise 
some really serious concerns that not only do we not have our 
own capacity, but we are relying on partners who had some 
mishaps, and I wonder about our capacity to really examine 
those mishaps, to examine what that means for our serving 
capacity for the International Space Station, and to see for 
ourselves what it is that we can learn in terms of our 
relationship with our international partners.
    And so, Admiral Dyer, General Stafford, I think you know 
that when you investigate anomalies and mishaps, when we have 
had government launch vehicles, the U.S. government has the 
capacity to maintain and access documentation on parts, on 
testing, on quality control when they are investigating, and 
then, of course, we in Congress have the ability to look in the 
public view about these mishaps. We often issue reports when we 
have had problems internally at NASA, and I guess I want to 
know what the capacity is if a mishap failure anomaly were to 
occur on a commercial vehicle for transporting NASA crew or 
cargo, and what information and documentation NASA would need 
to obtain from commercial companies in order to evaluate the 
safety of return to flight plans, ensure confidence that the 
root cause of any mishap had been identified and resolved, and 
to make a decision about how and when to resume flight 
operations.
    Are there things about what we have learned over the last 
couple of months that help us in that direction?
    Admiral Dyer. That is an excellent question and an 
important one. We are already seeing in this developmental 
phase with commercial space how important transparency is. One, 
I think, should expect it, given that it is taxpayer's dollars 
paying a tremendous amount of the freight, but certainly 
transparency on behalf of the commercial companies will be a 
good step forward but probably not a sufficient one.
    This does open a question to what on the panel we call 
acquisition strategy. Acquisition strategy closely links to 
safety because if you run out of money or you run out of time, 
you start to run out of the margin that is a contributor----
    Ms. Edwards. Uh-huh.
    Admiral Dyer [continuing]. In many good cases to safety. So 
as we go forward with the plan of a fixed price contract, it is 
important that those things be considered. As we look at the 
estimated costs and whether we will be able to support 
competition, all these things are a part of this, and that 
insight that you referenced needs to be part of the calculus 
going forward.
    Ms. Edwards. Let me just ask this. I mean, do we know if 
that kind of data are being kept now with companies and how 
much of that is not proprietary so that if something were to 
happen that NASA really has a capacity, if it, as though it had 
had the problem or failure itself, to investigate in the most 
thorough way?
    Admiral Dyer. I think there are different answers with 
different companies as to the maturity of the processes in 
place to maintain the data. The question of accessing it, 
whether it needs to be handled as proprietary, it can still be 
accessed, but it is important as you point out that NASA and 
the government have access to understand and to be able to 
certify the transport of U.S. astronauts.
    Ms. Edwards. And do we have the ability to know in this 
interim period whether we have that same level of access to 
information and ability to evaluate it independently from the 
Russians?
    Admiral Dyer. From the Russians, I think that is a question 
you really ought to pose to Mr. Gerstenmaier. He is closest to 
it, but as I mentioned in my remarks, the excellent job that 
Bill has done personally in building a relationship of 
understanding and sharing with the Russians. From my 
perspective the answer is yes.
    Ms. Edwards. Well, could we, Mr. Palazzo, if we could just 
get a really quick shout out from Mr. Gerstenmaier about 
whether that is really true.
    Chairman Palazzo. Without objection.
    Ms. Edwards. Thank you.
    Mr. Gerstenmaier. We have adequate insight into what the 
Russians are doing. The other advantage we have with the 
Russian system is we have a tremendous heritage. The Soyuz 
booster that has been flying is basically the same booster that 
has been flying for 50 years with modifications, whereas a new 
emerging design, there are a lot of new things that come with 
that. A new emerging design requires extra insight, additional 
data to go see what happened. So in this case we weren't as 
worried about the basic design problem as we might have in a 
new emerging system. We needed to look at that to make sure we 
didn't miss something, but we were now focused more on the 
processing and manufacturing aspect and not on the basic design 
itself.
    So it is a function of the maturity level of the design, 
the amount of insight required into the activity.
    Ms. Edwards. All right, and thank you very much, Mr. 
Chairman.
    Chairman Palazzo. I now recognize Mr. Smith from Texas.
    Mr. Smith. Thank you, Mr. Chairman. Most of my questions 
have already been answered, but I do have a couple more that I 
would like to address to General Stafford and to Admiral Dyer.
    And the first is this. Some have suggested that we might 
consider returning the Space Shuttle to active duty status. 
What do you think of that idea?
    Lieutenant General Stafford. Well, Mr. Smith, it has been 
proposed but, again, Mr. Gerstenmaier would probably be better 
to answer that, but the long poles and the tent is that 
external tank and that would probably take about two years to 
start up, but Mr. Gerstenmaier would be the one to answer that.
    Mr. Smith. Okay.
    Mr. Gerstenmaier. Sir, the Aerospace Safety Advisory Panel 
has looked at that question in some detail, and our 
observations really are first that this would have been a great 
research question three or perhaps four years ago, but it is 
not a good question or a practical question at this time.
    Mr. Smith. It is too late now. Let me assume that all of 
you would agree with that.
    Next question is this. There has obviously been somewhat of 
a brain drain from NASA. Do you think that has any long-term 
safety consequences to the programs themselves?
    General Stafford?
    Lieutenant General Stafford. Well, I have been involved 
with NASA, in some capacity, for over 40 years. There has to be 
an influence there; you have safety because people, young 
people coming out of college want to be involved and stay there 
for a career or the same way with industry, but then when they 
see complete disruptions and all this, say some of your best 
and your brightest tend to leave.
    And so you have, to me, an indirect effect right there.
    Mr. Smith. Okay. Admiral Dyer.
    Admiral Dyer. It is a concern and a worry, and if one 
thinks for a minute about root cause, not the superficial 
topics of the moment but root cause----
    Mr. Smith. Uh-huh.
    Admiral Dyer [continuing]. We would offer, sir, that 
perhaps it is consistency of purpose. If you look back over the 
history of the space program for the last several years and the 
last several Administrations, you will see new courses plotted 
at different times, and perhaps staying the course is one of 
the answers to your question, sir.
    Mr. Smith. It seems to me you might lose not only 
experience, you might lose continuity as well, and whether this 
is a parallel to the energy industry, I am not sure, but I do 
know that when the energy industry in effect is out of business 
for any period of time, it takes a couple of years to get back 
to where they were, and I was thinking that that might affect 
the space industry as well.
    Lieutenant General Stafford. Mr. Smith, one of the findings 
from the Columbia Accident Board that Admiral Gehman headed----
    Mr. Smith. Uh-huh.
    Lieutenant General Stafford [continuing]. Said one of the 
underlying causes was that the United States did not have a 
long-term continuous plan, and that is very definitely a 
concern.
    Mr. Smith. Okay. Thank you. Thank you, Mr. Chairman.
    Chairman Palazzo. At this time, we will go into a second 
round of questions, and I will begin.
    Mr. Gerstenmaier, under current law NASA has an exception 
from certain provisions of the Iran, North Korea, Syria 
Nonproliferation Act, commonly referred to as INKSNA, allowing 
NASA to purchase seats on the Soyuz for U.S. and our 
international partner astronauts and acquire other ISS-related 
services. This exception expires in 2016. What would be the 
impact of the ISS Program if the INKSNA exception is not 
extended, and when must a new exception be granted if 
additional Soyuz flights are necessary beyond 2016?
    Mr. Gerstenmaier. We think an exception to the Iran, North 
Korea, Syria Nonproliferation Act is needed, and it is needed 
even if we don't need to purchase Soyuz seats. For basic 
operations of the ISS we purchase certain services, minor, but 
from the Russians, and we need an exception for that to 
continue operations of ISS.
    So we are working the appropriate exception through the 
Administration. We need that in place some time probably in 
late 2012, early 2013, and that would be either for services, 
for transportation, or just generic services to ISS.
    Chairman Palazzo. Mr. Gerstenmaier, your statement says 
that NASA anticipates one or more operational commercial crew 
systems being available by the middle of this decade, which 
sounds like 2015 to me. This statement differs substantially 
from a briefing NASA officials just gave Subcommittee staff 
last week.
    Subcommittee staff were told to expect a notional date of 
2017, for the potential start of commercial crew flights. NASA 
officials indicate that even holding that date would be 
dependent upon Congress giving NASA the total amount requested, 
$850 million per year, for the next few years.
    How do you explain the discrepancy between the optimistic 
time table contained in your testimony and the much less 
optimistic time table brief to staff?
    Mr. Gerstenmaier. I would say the key consideration is the 
funding level assumed in that analysis.
    Chairman Palazzo. At this time I yield back my time.
    Ranking Member Costello.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Gerstenmaier, as you know, in the 2010 NASA 
Authorization Act it directs NASA to provide a government 
backup service to the ISS, and I wonder if you might tell us 
what NASA is doing to comply with that authorization.
    Mr. Gerstenmaier. What we are doing is our basic plan to 
use commercial crew transportation as the way to get to low-
earth orbit, and the reason for that is the system can be 
optimized for the low-earth orbit environment. In other words, 
the capsule can be simpler to operate, the rocket doesn't need 
to be as sophisticated or heavy as the government SLS solution 
we are starting to work on or the Orion multi-purpose crew 
vehicle.
    Both the SLS and the Orion multi-purpose crew vehicle could 
be used to go to low-earth orbit. It would be an extremely 
inefficient use of both of those systems. The capsule is 
designed to return from entry velocity distances as far away as 
the Moon, asteroids, Mars, et cetera, so the heat shield system 
is much larger than would be required, more expensive to 
maintain than could be used, that would be needed for low-earth 
orbit.
    It also has a life-support system that is much more robust 
than is needed in low-earth orbit. Also it is a much larger 
capsule and weighs more because you need to have the crew 
volume to do those distances I just described.
    But that is our back-up system beyond the commercial crew 
transportation system. It is a government solution that could 
be used to go to low-earth orbit. We are not doing anything to 
preclude the SLS or the MPCV being used for low-earth orbit 
transportation to ISS, but we are also not actively pursuing 
changes to the design to make them better for that efficiency. 
We are designing them for beyond low-earth orbit, but they can 
then satisfy the requirements of low-earth orbit in a less-
than-efficient manner.
    Mr. Costello. Thank you. Thank you, Mr. Chairman.
    Chairman Palazzo. The chair now recognizes Mr. Rohrabacher 
from California.
    Mr. Rohrabacher. Thank you very much. You know, when we 
look back at the Space Station and American Space Program these 
past three decades, we can see what came out of the Space 
Station. This was a great investment. I think we are talking, 
what, about $100 billion investment or at least, maybe more, 
maybe a lot more. I am not sure.
    By the way, what is that? What is the end result? How much 
have we put into Space Station?
    Mr. Gerstenmaier. I believe the number we quote is on the 
order of, I think, $60 billion.
    Mr. Rohrabacher. Okay. I got a feeling that is low. My gut 
instinct tells me that $60 billion, it was more than $60 
billion in this project. But one of the things that we actually 
learned from this is how to construct things in space, which I 
think that is a skill that can serve great purposes for 
mankind, for humankind.
    And one of the reasons why some of us are skeptical about 
putting so much money into a vehicle that will be used 10 years 
from now for putting things into exploration of the outer areas 
of space is that it will drain money away from potential 
projects that we see are important in low-earth orbit. I just 
mentioned debris clearing and perhaps some sort of any near-
earth object type of deflection concepts that I think would be 
important for humankind.
    Do you see any other projects that would involve space 
construction and for which we would use the lessons from the 
Space Station? That is number one. Do you see any more of those 
happening, and number two, are we going to have the capability 
to construct things in space without the Space Shuttle and the 
arm that we used so importantly in constructing something big 
in space?
    I put that out to the panel.
    Mr. Gerstenmaier. Again, I think we have seen the benefit 
as you described of the ability to construct things in space. I 
can see some other applications, maybe even some satellite 
things, some telescopes, some large mirrors, some other things 
that may have application in construction in space.
    We are also learning to use robots to do activities. We 
recently did an activity onboard Space Station. We changed out 
a remote power controller using a robot commanded from the 
ground. That was the first time that we had done that. 
Typically that had only been done via space walks with crew 
members. So there is some ability to grow in that area. So I 
think there are some real applications of you doing 
construction.
    We have also looked at the Orion capsule. The Orion capsule 
has some space in the back where we could actually put an arm 
on the Orion capsule, and we could do some limited assembly and 
limited construction with the Orion capsule.
    We are also looking at another vehicle which may be more of 
a multi-armed vehicle that would actually sit kind of on the 
front end of the Orion capsule. It would be more of a, kind of 
a construction vehicle. To say another term it might have an 
air lock in front to allow crew members to go EVA.
    So there are some modular pieces that we are looking to add 
onto the Orion capsule that gives us the ability to do 
construction in low-earth orbit and that same technology, same 
interfaces would be needed to go visit an asteroid, you would 
want to use those same robotic manipulators. You may use some 
of the same grappling mechanisms with an asteroid that you 
could use for a low-earth orbit construction.
    So I don't think we are going to give up on low-earth orbit 
construction. We still have the capability to do that with the 
Orion capsule the way it is envisioned.
    Lieutenant General Stafford. Mr. Rohrabacher, the Soviet 
Union, later Russia, they started back in 1986, building the 
Mir Space Station, putting together just robotically large 
structures up to 45,000 pounds, and they did that continually 
as they built up the Mir. So that technique has been 
demonstrated, and if you have the ability of the rocket to put 
that weight up there, it can be done, sir, robotically, very 
easily.
    Admiral Dyer. Interesting linkage perhaps between Mr. 
Smith's question and yours and that is--I should acknowledge up 
front that I come from the ground robotics business, not the 
space business, but we are having tremendous success in 
recruiting young men and women out of college and getting 
people started in that scientific and engineering undertakings 
in college, out of high school, thanks to the FIRST work in 
high schools.
    I certainly agree with you that low-earth orbit is 
important and will be for many, many years, but perhaps one of 
the most important parts of space launch system is its reach 
beyond and represents an opportunity to really reignite the 
excitement of American youngsters with regard to space.
    Mr. Rohrabacher. Thank you very much.
    Chairman Palazzo. The chair now recognizes Ms. Edwards from 
Maryland.
    Ms. Edwards. Thank you, Mr. Chairman. I just want to follow 
up, if I could, Mr. Gerstenmaier, on the questions raised by 
Ranking Member Costello, and it has to do with--I understand 
the ability to develop a backup capacity. What I am trying to 
figure out is just how timely that would be, and so I wonder if 
you could help me out there. And then I had some other 
questions regarding safety and our ability to begin to get the 
Soyuz back on track.
    Mr. Gerstenmaier. Again, our focus is to try to stay with 
the commercial crew transportation as our primary means of 
getting crew to ISS, and we had planned to focus on that with 
the budget activities and making progress as we move forward.
    If we see some dramatic change in either the cargo world, 
the commercial cargo world or the commercial crew world, we 
could refocus our efforts back to the government solution to 
try to advance that and pull that forward at the time we see 
that. But right now at this point we have kept our focus on the 
commercial side for both commercial crew and commercial cargo 
transportation as our focus of providing an alternate way to 
get crew to Station other than the Soyuz.
    Ms. Edwards. So does that mean that, you know, for now for 
this interim period that you--when would you fully anticipate 
that we would have our own capacity even if it is the 
commercial capacity?
    Mr. Gerstenmaier. We think, again, the commercial capacity 
would be in the 2015, 2016 timeframe, again depending upon the 
actual budget scenario we get. As we discussed with the SLS 
MPCV, the first un-crewed test flight is in 2017. With our 
current budget scenarios the first crewed flight would be in 
2021, for the government SLS/MPCV solution, and that is also a 
function potentially of budget. That can be advanced a little 
bit if we get additional budget in that area.
    Ms. Edwards. But we actually really don't have any way of 
knowing whether we are really talking about, you know, sort of 
'20, '21, or perhaps even beyond that because we know all of 
these things are all very fluid, which raises my next question, 
which would have to do with getting back on track with Soyuz.
    Have you--has NASA been able to determine when it is going 
to be safe to resume crewed flights if a commercial vehicle 
ever has a Soyuz-like accident?
    Mr. Gerstenmaier. Again, it is hard to speculate what the 
problem was that occurred. You know, I think we need to go step 
back for a minute and look at the cargo world first. The 
Progress vehicle had, as we described, I think it was heard 
earlier, we had 1,800 firings of this engine, particular engine 
that fired. So it has----
    Ms. Edwards. Uh-huh.
    Mr. Gerstenmaier [continuing]. A tremendous history behind 
it, but yet it still failed. We need to watch as the commercial 
cargo providers are coming online, there is a fairly high 
likelihood they could have some problem and potentially lose a 
cargo vehicle at the beginning of their programs. We need to be 
prepared to accept that, understand that, fix the problem, and 
get ready to move on. If we stop everything and we go back and 
do a detailed, deep investigation, we go back and question our 
acquisition philosophies and put a protracted or extremely long 
investigation on that, that could be very problematic to 
getting commercial cargo available.
    So we need to start actively having discussion about what 
would be needed in the instances that you described, but it is 
very difficult to speculate because it depends upon what the 
failure was, was it a simple fix, something that was easily 
missed or something that needs much more involvement and more 
investigation.
    Ms. Edwards. I mean, the trouble is that we actually have 
that kind of extensive data as you described before with 
respect to the Soyuz, but if we got started with a commercial 
flight, we actually wouldn't have our own vehicles here. We 
wouldn't actually have any kind of a data set, and so how would 
you then determine, you know, first, when you would be able 
to--or when would that data be available? It is kind of hard 
for me to know without then predicting a 50-year history like 
the one that we have with Soyuz.
    Mr. Gerstenmaier. Again, part of our strategy is we have 
redundancy to somewhat redundancy in cargo transportation. So 
we not only have the commercial providers, we have the 
automated transfer vehicle provided by the Europeans which can 
deliver cargo to the ISS, we have the Japanese HTV vehicle 
which can provide cargo, and then we have two commercial cargo 
providers.
    So we have a fair amount of way to get cargo to Space 
Station so we have some time to go work these problems, and we 
would have to pull the data and understand the problems as we 
move forward.
    But, again, I don't think it is an insurmountable problem. 
We just need to be ready to go do that, and we are prepared 
generically ready to go do that.
    Ms. Edwards. Thank you. Mr. Chairman.
    Chairman Palazzo. I want to thank the witnesses for their 
valuable testimony and the Members for their questions.
    The Members of the Subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. The record will remain open for two weeks for 
additional comments from Members.
    The witnesses are excused, and this hearing is adjourned.
    [Whereupon, at 3:28 p.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions


Responses by Mr. William H. Gerstenmaier, Associate Administrator,
Human Exploration and Operations Mission Directorate,
National Aeronautics and Space Administration

Questions submitted by Chairman Steven M. Palazzo

Q1.  Please provide the cost and schedule estimates for the commercial 
crew initiative and the detailed analytic basis of those estimates.

A1.  NASA has worked for several years to refine an estimate of the 
required government investment to successfully develop a commercial 
crew capability. In 2009, the Final Report of the Review of U.S. Human 
Spaceflight Plans Committee provided an estimate of $5B over five 
years. In the planning for the President's 2011 budget request, the 
Administration refined this estimate and requested a lower-risk funding 
level of $5.8B for commercial crew development over five years. Since 
that time, NASA has continued to receive detailed information from 
potential commercial partners and independent analysis, providing a 
general range of $2.5-$3.5B per system. NASA strongly supports carrying 
at least two systems as far along through the development process as 
possible. This approach will take advantage of continued competition 
for an estimated investment of $5-$6B.
    A detailed description of the analysis behind the outline of the 
NASA estimate follows:
    The analysis used to develop that estimate and that has been 
refined with time was from the Final Report of the Review of U.S. Human 
Spaceflight Plans Committee, ``Seeking a Human Spaceflight Program 
Worthy of a Great Nation'': http://www.nasa.gov/pdf/
396093main<INF>-</INF>HSF<INF>-</INF>Cmte<INF>-</INF>FinalReport.pdf.
    That analysis was used as the primary basis for the FY 2011 
President's Budget Request for commercial crew development. During the 
FY 2011 budget development process, it was decided to add some risk 
margin to the ``Final Report of the Review of U.S. Human Spaceflight 
Plans Committee'' estimate of $5B, given the uncertainties associated 
with major development programs and the importance of acquiring this 
capability. Thus, a $5.8B budget was included for commercial crew 
development over five years, with the following phasing:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Subsequent to the FY 2011 President's Budget Request, several 
events occurred, which further informed NASA's budget estimates. First, 
in May 2010, NASA requested additional information from industry in the 
form of a Request for Information (RFI) in which NASA requested, among 
other things, the following:
    ``What is the approximate dollar magnitude of the minimum NASA 
investment necessary to ensure the success of your company's Commercial 
Crew Transportation (CCT) development and demonstration effort? What is 
the approximate government fiscal year phasing of this investment from 
award to completion of a crewed orbital flight demonstration? What 
percentage of the total development cost would the NASA contribution 
represent?''
    The information NASA received in response to these questions was 
limited and somewhat incomplete, but estimates for full (government and 
private investment) commercial crew system development costs appeared 
to range from approximately $1B to $8B per system, with an average 
around $2.5B to $3B. Two average-cost systems would therefore require 
$5 to $6B in total investment through certification. Also, NASA 
received informal cost and technical data during our interactions with 
the original Commercial Crew Development (CCDev) partners (Boeing, 
Sierra Nevada, United Launch Alliance, Blue Origin, and Paragon) and 
the CCDev Round 2 partners (Boeing, Sierra Nevada, SpaceX, and Blue 
Origin) and others interested in developing commercial crew 
transportation systems.
    In addition, NASA received other data from industry in more formal 
settings, including: Industry Days, Program Forums, and One-on-One 
Meetings with potential commercial crew transportation system 
providers. All these data appeared to substantiate estimates for full 
commercial crew development costs in the range of $2B to $4B per 
system, although some were as low as $1B. Ranges of proportional 
industry investment also were wide, with most centering between 10 
percent and 20 percent, while some were above 50 percent.
    During the FY 2012 budget development process, NASA strove to 
strike the right balance between Human Exploration Capabilities and the 
development of commercial crew transportation systems. Based on the 
many needs in FY 2012 and NASA's moderately better understanding of the 
crew transportation system development costs, the Agency submitted a 
request for $850M for FY 2012 for the Commercial Crew Program. For 
planning purposes, this amount was assumed to remain flat for FY 2013-
FY 2016 at $850M.
    This amount ($850M) was above the amount authorized in the 2010 
NASA Authorization Act for FY 2012 ($500M). The higher amount for the 
Commercial Crew Program was estimated to be the minimum amount 
necessary in FY 2012 to achieve safe, reliable, cost-effective U.S. 
crew transportation capability by 2015/2016. The 2010 NASA 
Authorization Act established commercial crew as the primary means for 
U.S. access to the ISS, and NASA wanted to take all steps necessary to 
provide assured access to the ISS for NASA and NASA-sponsored 
personnel.
    Since the release of the FY 2012 President's Budget Request, NASA 
has continued to refine its budget estimates to inform the FY 2013 
Budget. An additional input came from a recently completed external 
assessment of the cost, schedule, and technical estimates that NASA has 
been using for the Commercial Crew Program. This external assessment 
was performed by Booz Allen Hamilton, which confirmed that NASA's 
estimates were reasonable (because the report contains Privileged/
Proprietary Commercial or Financial Information, NASA has submitted 
this document to the committee under separate cover).
    While the $406 million for the Commercial Crew Program funded in 
the Consolidated and Further Continuing Appropriations Act of 2012 
(Pub.L. 112-55) will enable the Agency to move the Program forward, 
NASA has had to reassess its acquisition strategy for this Program.
    On December 15, 2011, NASA announced a modified competitive 
procurement strategy to keep the Commercial Crew Program on track; 
instead of awarding contracts for the next phase of the Program, the 
Agency plans to continue to use multiple, competitively awarded funded 
Space Act Agreements (SAAs). Using competitive SAAs instead of 
contracts allows NASA to fund multiple partners during this phase of 
the Program. This new acquisition strategy will allow the Agency to 
preserve competition and maintain momentum to provide a U.S.-based 
commercial crew launch capability at the earliest possible time.
    This new strategy has resulted in an estimated availability date 
for U.S. commercial crew services likely by 2017.

    1. COTS A is defined as External Cargo Delivery and Disposal, COTS 
B is defined as Internal Cargo Delivery and Disposal, COTS C is defined 
as Internal Cargo Delivery and Return.
    2. Note: Capsules will be used for both Crew and Cargo missions. 
However, the configuration for Crew Capsules will be different than 
those used for Cargo.

Q2.  Given the delays in NASA's commercial cargo program, and the lack 
of the European ATV after 2014, what backup plan is in place to meet 
the ISS logistics requirements after 2014?

A2.  NASA mitigates the logistics resupply risk by using existing 
capabilities to pre-position critical cargo and by supporting the 
development of independent commercial resupply capabilities. To protect 
the International Space Station Program from commercial cargo program 
delays, NASA used established cargo capabilities to pre-position cargo 
prior to Shuttle retirement. This strategy has enabled NASA to absorb 
the commercial cargo program delays with minimal impact through 2012. 
Although not expected, if the commercial cargo programs are delayed 
into late 2013, the scheduled HTVs and ATVs can likely support ISS 
operations but this would result in significant deferment of 
utilization. If the commercial cargo program is delayed beyond 2014, it 
would require additional actions, such as reducing the crew size. The 
impact of terminating European ATV flights after 2014 is reduced by 
coinciding with the solar cycle minimum. During the solar cycle 
minimum, the ISS propellant needs are greatly reduced. Current 
propellant deliveries on ATV1 through ATV5 satisfy the NASA propellant 
contribution requirements through 2020. Roscosmos Progress vehicles 
will satisfy the remaining propellant requirements per existing ISS 
agreements. It is fully expected that both commercial cargo delivery 
providers will be operational post 2014. Additional commercial services 
procurement in the 2016-2020 time frame will meet the cargo delivery 
needs. NASA has mitigated the logistics resupply risk by procuring 
cargo services from multiple, redundant providers and pre-positioning 
cargo.

Q3.  What options are available from our international partners to 
supply the necessary up-mass capability from 2014 to 2020?

A3.  In the unlikely event the commercial cargo delivery providers are 
unavailable in 2014 through 2020, three ISS partners have capability to 
provide up-mass services in 2014-2020. JAXA and ESA can supply one HTV 
and one ATV, respectively, per year within their current manufacturing 
capability if provided the proper notice and resources. Similarly, the 
Russian Federal Space Agency (Roscosmos) could supply additional 
Progress capability for NASA and U.S. Operating Segment (USOS) use 
within their manufacturing capability, also with proper notice and 
resources. These cargo delivery capabilities can support the safe 
operation of the ISS but with impact to the utilization of ISS.

Q4.  Please provide for the record (1) the effects of the reduced crew 
size on scientific utilization for research, (2) which area of research 
is most affected and to what degree, and (3) how has the reduced crew 
size impacted the overall station operation.

A4.  Crew size affects research progress in two primary ways. The first 
is the amount of crew time available to conduct experiments. In short-
term periods of reduced crew size, some work could be replanned to 
allow high-priority experiments to stay on course, but over the longer 
term, the impact of reduced crew size will be greater. A smaller crew 
will also reduce the number of human subjects for biomedical research 
on the effects of spaceflight and potential countermeasures. An 
important aspect of the human response to spaceflight, and to 
countermeasures, is the statistical variability shown in experiments. 
In order to determine the statistical variability of results in 
biomedical research, there must be data from a number of subjects. If 
the number of crew is reduced, the number of potential subjects for 
biomedical research will be reduced, and the time required to gather 
the necessary data is drawn out as researchers wait for new crew to 
participate. The area of research most affected by crew size is 
biomedical research on the consequences of long-duration spaceflight, 
and the development of countermeasures for medical issues like loss of 
bone and muscle, cardiovascular deconditioning, and visual impairment. 
Since this research depends on both crew time availability and on the 
total number of participating subjects, the progress of human 
biomedical research is more or less directly proportional to the number 
of participating subjects, or the participating crew on orbit.
    ISS has continued to operate safely and execute its research plan 
during periods with three crewmembers instead of six, an operating mode 
in which we are well experienced. The primary difference is in crew 
time available for research, time-critical maintenance and systems 
enhancements. There has been no effect on the crew's readiness to 
respond to emergencies during periods of reduced crew size. Each Soyuz 
three-crew complement is thoroughly trained to respond to both system 
emergencies, such as fire or loss of pressure, as well as any medical 
emergencies. During the two months from September 15-November 16, 2011, 
with two United States Operating Segment (USOS) crewmembers to perform 
our work, lower priority maintenance tasks were deferred in order to 
maximize research. These tasks were accomplished when the ISS returned 
to its full complement of 6 crewmembers in December of 2011. Examples 
of these deferred tasks are pre-routing of cables for future avionics 
upgrades, troubleshooting and repair of non-essential hardware, and 
arranging more efficient stowage in the Permanent Maintenance Module 
(PMM).
    Additionally, because crewmembers are not cross-trained to perform 
extravehicular activity (EVA) in the other segment's spacesuits, NASA 
did not have a fully trained ISS EVA team on-board. Russian Segment EVA 
capability was restored following the arrival of the next Soyuz crew in 
late November; however, USOS EVA capability was unavailable until 
additional USOS crewmembers arrived in December. Current ISS 
performance as well as built-in ISS system redundancy significantly 
minimized the risk of requiring an EVA; however, the time frame of risk 
exposure was increased due to the extended duration of the three-crew 
period.

Q5.  Please quantify for the record the type and amount of research 
that has been lost as a result of reduced crew time on orbit.

A5.  The loss of the Progress 44P has resulted in delays to the launch 
or return of four Soyuz flights. This extended the periods of three-
crew operations on the ISS, and a subsequent reduction in crew 
utilization hours from a planned 515 hours to a current estimate of 
approximately 333 hours, based on actual hours recorded and estimates 
of utilization through docking of Soyuz 29S in late December. By this 
estimate, the impact to research on ISS from the failed Progress launch 
is about a 35 percent loss of science from the baseline plan over the 
6-month increment.

Q6.  NASA has done a thorough job pre-positioning supplies and spares 
on ISS, but assuming no major anomalies, how long could ISS safely 
operate without crew? Which on-board systems carry the greatest risk or 
cause the most concern?

A6.  The ISS is designed to be safely operated for extended periods in 
both crewed and de-crewed modes. For the de-crewed mode, ISS systems 
are reconfigured to allow continued safe operation under only ground-
based command and control. In this decrewed configuration, all critical 
systems will be left in a fully redundant configuration. However, after 
the crew leaves, it will not be possible to repair failures that occur.
    The ISS requires re-boosting approximately every three months, 
which requires use of Russian thrusters and consumption of propellant. 
As of the time of the Progress anomaly, there were approximately 6,000 
kg of propellant on board the ISS, which would have allowed the ISS to 
maintain orbit for approximately two to three years without resupply.
    The greatest risk is failure to maintain attitude in the de-crewed 
mode. The ISS motion control system (MCS) is composed of Russian and 
U.S. segments that maintain attitude control. When the Russian segment 
is in control, it uses attitude thrusters, which burn propellant. When 
the U.S. segment is in control, Control Moment Gyros (CMGs) are used. 
The two systems continuously exchange data for redundancy and 
comparison tests. They are complementary except for propulsion, which 
is provided by the Russians. The Navigation portion of the U.S. 
Guidance, Navigation and Control system primarily relies on Global 
Positioning System (GPS) data to determine ISS position, velocity and 
attitude. Russia's GPS counterpart, the Global Navigational Satellite 
System (GLONASS), provides data to the Russian segment's Motion Control 
System (MCS). Attitude data is also drawn from two sets of three U.S. 
ring laser gyros called ``rate gyro assemblies.'' These use variations 
in laser light beam lengths to sense attitude change and the rate at 
which it is occurring. The data they produce is used to supplement GPS 
data. In addition, Russia's system determines the ISS's attitude by 
tracking the stars and the Sun, and by gauging the horizon. In addition 
to failures in the MCS, failures in the systems that support the MCS 
such as the command and data handling system, or the thermal control 
system can also lead to loss of attitude control. It takes not only 
multiple failures, but specific multiple failures that take out all 
capability of a critical system, to cause Loss of Vehicle for a 
decrewed ISS.

Q7.  The Russians have been valuable partners on the ISS, but without 
the shuttle, NASA is now exclusively buying crew transportation 
services from Russia. This changes the Russian's role to something more 
akin to that of ``supplier'' with NASA as a ``customer'' for crew 
transportation. In this new role as a ``customer'' of Russia are the 
previous ways of doing business adequate or do you think NASA's insight 
and oversight of the Russian operations should be strengthened?

A7.  NASA has been purchasing transportation and rescue services from 
Russia for many years as a customer, and the Russians have proven to be 
consistently reliable partners. For example, in the aftermath of the 
Columbia accident, the Russians provided the Soyuz spacecraft necessary 
to keep the ISS operational. In terms of NASA's insight into technical 
systems and issues, the Russians have kept NASA officials very well 
informed regarding anomalies experienced (e.g., Soyuz ballistic re-
entries, the Progress 44P anomaly). The Russian Federal Space Agency 
(Roscosmos) is responsible for resolving technical issues related to 
anomalies and coordinating with all of the International Partners, 
including NASA. This coordination is formally manifested in meetings of 
the Space Station Control Board, as well as the partners' participation 
in the standard Stage Operations Readiness Reviews and Flight Readiness 
Reviews. NASA is satisfied with this level of insight.

Questions submitted by Acting Ranking Member Jerry Costello

Q1.  What was the extent of NASA's insight into the quality control of 
Shuttle components? How does this compare to the insight NASA maintains 
for the quality control of NASA Launch Services launchers used for NASA 
science missions? How does this compare with the level of insight NASA 
expects to achieve in assessing the quality control of components used 
by commercial cargo and crew providers?

A1.  For the Space Shuttle Program, the role of the Office of Safety 
and Mission Assurance (OSMA) was consistent with the roles performed on 
all human and robotic space flight missions as defined in NASA Policy 
Directive (NPD) 1000.0A, the NASA Governance and Strategic Management 
Handbook and NASA Procedural Requirements (NPR) 7120.5, NASA Program 
and Project Management. This role included the structured application, 
implementation, and oversight of Agency-wide safety, reliability, 
maintainability, and quality assurance (SRM&QA) policies, procedures, 
and requirements. OSMA had the lead in ensuring incorporation of 
appropriate NASA human space flight safety and mission assurance (SMA) 
strategies, policies, and standards from early program activity through 
program completion in July 2011. For the duration of the Space Shuttle 
program, NASA had assigned a Program Chief SMA Officer (CSO) who had 
Safety and Mission Assurance Technical Authority responsibility for 
Space Shuttle. This CSO reported independently through the Center SMA 
Director, the Center Director, and then to the NASA Headquarters Chief, 
Safety and Mission Assurance (OSMA). In addition, the staff of the 
Headquarters Chief, Safety and Mission Assurance provided independent 
assessments/viewpoints at Agency level management forums over the 
duration of the program.
    For the NASA Launch Services Program (LSP), the quality control of 
the NASA Launch Services (NLS) launchers is governed by NASA Policy 
Directive (NPD) 1000.0A, the NASA Governance and Strategic Management 
Handbook and NASA Procedural Requirements (NPR) 7120.5, NASA Program 
and Project Management. This role includes the structured application, 
implementation, and oversight of safety, reliability, maintainability, 
and quality assurance (SRM&QA) policies, procedures, and requirements 
as they apply to commercially developed systems procured thru the NLS 
contract.
    OSMA has worked with the LSP SMA to ensure incorporation of 
appropriate safety and mission assurance (SMA) strategies, policies, 
and standards in program activities and subsequent efforts verify 
compliance with these requirements. As NASA has done in other Programs, 
a Safety and Mission Assurance Technical Authority has been delegated 
responsibility for the NASA Launch Services procured by the LSP. The 
SMA Technical Authority reports independently through the Center SMA 
Director, the Center Director, and the Chief, Safety and Mission 
Assurance (OSMA). In addition the staff of the Chief, Safety and 
Mission Assurance interface with the Launch Services Office within the 
Human Exploration and Operations Directorate at Headquarters, as well 
as directly with the LSP safety and mission assurance personnel and 
Technical Authority providing independent assessments/viewpoints at 
Agency level management forums.
    The NLS contract contains a clause for insight and approval that 
enables the processes NASA utilizes for launch service certification of 
flight readiness (COFR). This clause enables LSP to meet the 
requirements in NPD 8610.23, Launch Vehicle Technical Oversight Policy. 
In performing Technical Oversight of the launchers used for Science 
missions, ``NASA uses a combination of specified approvals and targeted 
insight in order to establish, apply, and modify mission technical 
requirements, identify technical issues and resolve disputes, and 
assess the competency and adequacy of the technical work performed by 
the commercial launch service providers.'' These processes are executed 
throughout the launch service life cycle (launch vehicle manufacturing/
production through launch).
    For the NLS contract, it is important to note that ownership of the 
technical standards, engineering design, analysis and manufacturing/
quality processes resides with each launch service provider, not NASA. 
In addition, similar to how the SMA Technical Authority operates, the 
LSP Engineering Technical Authority and associated engineering 
functions operate with, but independently from, the LSP management. As 
a result, the LSP Engineering and SMA Technical Authorities are both an 
integral part of the overall LSP Mission Assurance approach, of which 
quality control of the NLS launchers an element.
    The data resultant from the NPD 8610.23 Technical Oversight, 
including the resident office quality assurance activities, forms the 
foundational basis for NASA's overall launch vehicle mission assurance 
assessment. From these assessment activities, NASA gains a detailed 
understanding of the quality of the commercial launch service 
provider's flight systems and the overall launch service acceptability 
including identification of any associated risks resulting in NASA's 
launch service mission/flight readiness certification (COFR).
    The quality control system for NASA's Commercial Crew Program (CCP) 
is still under development and will be finalized in the coming years.
    At present, it is expected that insight into commercial crew 
provider processes, including quality control, will be governed by NASA 
Policy Directive (NPD) 1000.0A, the NASA Governance and Strategic 
Management Handbook and NASA Procedural Requirements (NPR) 7120.5, NASA 
Program and Project Management. As with other programs, a Chief Safety 
and Mission Assurance Officer (CSO) has been assigned to carry out the 
roles of the SMA Technical Authority for CCP. The CSO reports 
independently through the Center SMA Director, the Center Director, and 
the Chief, Safety and Mission Assurance (OSMA).
    It is also expected that NASA will include the appropriate set of 
safety, reliability, maintainability, and quality assurance policies, 
procedures, and requirements in commercial crew agreements worked 
between NASA and commercial service providers. One example is that 
NASA's commercial partners are expected to be responsible for 
developing and implementing a quality management system that is 
compliant with AS9100. Other policies, processes and workmanship 
standards will be utilized as applicable.
    NASA expects to perform assessments to determine if the commercial 
partner's quality control processes provide adequate documentation and 
sufficient process control to ensure crew safety and mission success. 
NASA will evaluate specific hardware and software data and non-
conformances as they relate to NASA's key interface requirements. In 
addition, NASA has insight into the commercial companies' compliance to 
industry standards such as AS9100 and has the ability to review and 
assess performance to those standards.
    Overall, NASA will verify that key performance parameters are 
trended, evaluated, and understood and each commercial partner will 
obtain NASA Certification prior to flying NASA or NASA-sponsored 
crewmembers.
    Additional quality control processes and procedures are currently 
under evaluation by the Commercial Crew Program and the approach to 
quality control will be finalized over the coming years.

Q2.  You indicate in your statement ``We need to anticipate inevitable 
start-up challenges associated with a technologically ambitious 
endeavor.'' Does the possibility of ``inevitable start-up challenges'' 
also apply to commercial crew?

A2.  Yes. While the U.S. has transported crew to and from low-Earth 
orbit for decades, each crew vehicle is unique and its integration with 
the launch vehicle also needs to be considered from a systems 
engineering perspective. The challenge of flying humans into space will 
always require careful application of engineering principles and 
quality control procedures. NASA does anticipate challenges for this 
program, some significant and some associated with the early phases of 
development, test, and operations. NASA plans to address and/or 
mitigate these challenges as we execute the program.

Q2a.  Given that, what is the basis of the estimate of ``middle of this 
decade'' for when commercial crew services would be operational?

A2a.  NASA has been told consistently by a broad range of potential 
providers that private sector partners expect to be able to achieve a 
capability of providing commercial spaceflight services to the ISS 
within three-five years from initial development start. NASA's FY 2013 
budget request for the Commercial Crew Program would provide sufficient 
funds to continue development of commercial crew transportation 
systems, which would enable services to ISS likely by 2017, but earlier 
availability of services will not be precluded.

Q3.  In the case of the recent Soyuz mishap, I understand that the 
Russians plan to fly two unmanned flights before astronauts are allowed 
back on the Soyuz rocket. If a commercial launch vehicle experiences a 
serious anomaly, what will NASA require of the companies before they 
are allowed to resume flights carrying NASA astronauts?

A3.  It will depend on the anomaly and when it occurs. It will also 
depend on whether the flight was licensed by the FAA and/or the 
provisions of the contract under which NASA is flying astronauts on 
commercial crew transportation systems. In general, NASA requires an 
identification of the root cause of any anomaly and an approved 
corrective action plan with verification that the plan has been 
followed. If there is a loss of life, Title 51 of the US Code provides 
guidance as to what NASA would do for a mission provided under contract 
to NASA:

    51 USC Ch. 707--HUMAN SPACE FLIGHT INDEPENDENT INVESTIGATION 
COMMISSION
    Sec.  70702(a): Establishment.--The President shall establish an 
independent, nonpartisan Commission within the executive branch to 
investigate any incident that results in the loss of ----

    <bullet>  (1) a space shuttle;

    <bullet>  (2) the International Space Station or its operational 
viability;

    <bullet>  (3) any other United States space vehicle carrying humans 
that is owned by the Federal Government or that is being used pursuant 
to a contract with the Federal Government; or

    <bullet>  (4) a crew member or passenger of any space vehicle 
described in this subsection.

Q3a.  Who will bear these costs? What assurance can you offer the 
members that this will not be additional ``hidden costs'' to the 
taxpayer?

A3a.  As in the previous questions, it will depend on the anomaly and 
when it occurs. It will also depend on whether the flight was licensed 
by the FAA and/or the provisions of the contract under which NASA is 
flying astronauts on commercial crew transportation systems.

Q4.  In your prepared statement you say, ``the Station will also serve 
to promote the growth of a LEO space economy by operating as a customer 
and a destination for U.S. companies capable of transporting crew and 
cargo into orbit.'' What analysis has been done on the potential 
research utilization of the ISS as a driver of demand for commercial 
crew and cargo services to low-Earth orbit?

A4.  Pursuant to Section 403 of the NASA Authorization Act of 2010 
(Pub.L. 111-267), on April 27, 2011, NASA submitted a report to 
Congress on ``Commercial Market Assessment of Crew and Cargo Systems.'' 
Section 5.2 on Applied Research and Technology Development is directly 
responsive to the question, and is excerpted from the report below:

Historical Experience (Lower End of Range)

    To date, virtually all of the funding for experiment development, 
transportation, accommodation and resources has been provided by 
government sponsors with few notable exceptions of commercial 
investment. Commercial investments have been limited to covering the 
costs of their investigators and incidental expenses. The share of 
experiments with a commercial interest, as a percent of total 
experiments performed, has been approximately nine percent.
    In some cases, an experiment conducted on board the ISS by a 
private, non-U.S. Government entity had its investigator costs paid for 
by that private entity, but costs of transport and use of the station 
were covered by NASA. Thus, none of the research included in the 
``U.S.-commercial" category was completely funded by private entities, 
and it is unclear if any of this research would have been conducted had 
the government financial contribution not existed. Accordingly, the low 
end of the range for this market is zero pounds of cargo, even though 
private entities have contributed financially, in some cases quite 
substantially, to this research.

Market Potential (Upper End of Range)

    As mentioned, approximately nine percent of ISS utilization 
interest has originated from commercial sources. This figure provides 
an estimate of the level of commercial market interest in Applied 
Research and Technology Development activities, when the research costs 
are largely covered by NASA. Accordingly, it can be used to provide the 
ISS-related portion of the upper end of the range. Applying nine 
percent to the total projected National Lab utilization gives an 
estimate for commercial ISS cargo of approximately 3,900 pounds 
[through 2020].

Q5.  You say in your prepared statement that ``[the ISS] is the only 
space-based multinational research and technology test-bed available to 
identify and quantify risks to human health and performance, identify, 
and validate potential risk mitigation techniques, and develop 
countermeasures for future human exploration.''

    <bullet>  Is NASA on track to retire and mitigate against critical 
human risks to long-term exploration in order to support a human 
mission to an asteroid in the 2025 time frame?

A5.  The NASA Human Research Program has identified the human health 
and performance risks for long-duration space missions and is working 
toward addressing each of those risk areas (http://
humanresearchroadmap.nasa.gov/). These efforts are aiming to address 
and provide solid research to quantify and provide mitigation for most 
human health and performance risks to support an asteroid mission in 
the 2025 time frame. The most challenging and uncertain risk areas at 
the present time are the health effects associated with visual 
impairment/increased intracranial pressure and space radiation. Both 
these areas have the potential of limiting mission duration. The 
Advanced Exploration Systems, Space Technology, and Human Research 
Programs are working to characterize space radiation environments, and 
to develop radiation shielding. Other areas, while still challenging, 
such as providing necessary muscle and bone countermeasures, approaches 
to dealing with crew isolation and confinement, asteroid chemical/dust 
human exposure limits, and requirements for habitable volume, are 
within the current research capability and should have acceptable 
mitigation strategies before any mission to a near-Earth asteroid.

Q5a.  If the ISS were to go into a de-crewed status for an extended 
period (six months or more), how would NASA plan to acquire the human 
health research needed to address long-term exploration risks?

A5a.  The ISS provides unique long-term access to the space environment 
and is essential for reducing crew health and performance risks 
associated with exploration missions. As such, ISS utilization is in 
the critical path for reducing these risks and extended de-crewing 
would impact NASA's ability to complete the research necessary to 
understand the severity of certain risks, to gather evidence to 
quantify the risks, and to complete the development of key 
countermeasures.
    ISS de-crewing would have a significant impact on current ISS human 
research experiments in musculoskeletal countermeasures, cardiac 
function, aerobic capacity, sensorimotor changes, and crew performance. 
If the de-crewing were for less than six months, the long-term impact 
may be limited, as we would continue to use appropriate ground analogs, 
like bed rest studies, to refine future ISS research experiments. 
However, one area that would be disproportionately impacted is new ISS 
research on space induced visual impairment/increased intracranial 
pressure. A de-crew would delay our ability to understand this 
significant health issue, since there is currently no means of making 
progress without the ISS data collection and research performed on the 
ISS. Although it is difficult to predict how long it will take to 
understand and solve this problem, the agency has a preliminary plan to 
provide an understanding and potential countermeasure before the end of 
ISS.
Responses by Lieutenant General Thomas P. Stafford, USAF (Ret.),
Chairman, International Space Station Advisory Committee

Questions submitted by Chairman Steven M. Palazzo

Q1.  NASA is entering into an increasing number of Space Act Agreements 
and other non-contract relationships involving hundreds of millions of 
dollars of taxpayer money. Based on your experiences with this 
investigation or others, please describe the level of insight your 
organization has with NASA itself, with NASA's commercial crew partners 
using Space Act Agreements, and with NASA's international partners such 
as Roscosmos.

A1.  We have very little or no insight to the commercial partners for 
commercial cargo. At this time, no insight to commercial crew except 
that briefed by the ISS Program Office. We have somewhat good insight 
into Roscosmos.

Questions submitted by Ranking Member Jerry Costello

Q1.  If a mishap, failure, or anomaly were to occur on a commercial 
vehicle used for transporting NASA crew or cargo, what information and 
documentation would NASA need to obtain from commercial companies in 
order to evaluate the safety of return-to-flight plans, ensure 
confidence that the root cause of any mishap had been identified and 
resolved, and make a decision to resume flight operations?

A1.  The same as if it was a NASA vehicle.

Q1a.  Do you know if such data is being kept by the companies and if 
they plan to make it available to NASA?

A1a.  We have not been briefed on any data or process.

Q1b.  What other types of information are needed to ensure the safety 
of astronauts flying on commercial vehicles, since extensive 
accumulated flight data, as was used in the case of the Soyuz, will not 
be available?

A1b.  Need complete insight to data and processes used by commercial 
partners.

Q2.  What steps has the Russian space agency taken to address the root 
cause of the recent Soyuz/Progress incident?

A2.  They have explained the steps they are taking. Most data received 
through ISS Program Office.

Q3.  In considering the future of the ISS servicing and resupply, to 
what extent do you think NASA and the international partners have 
identified and addressed all safety issues? Are there any gaps and if 
so, what are they?

A3.  There is a series of safety requirements issued by NASA.

Q4.  NASA has a multi-decadal history of working with the Russians on 
cooperative human spaceflight activities. What aspects of the Russian-
NASA process for dealing with Soyuz mishaps, incidents, and anomalies 
are critical for NASA's partnerships with future non-government ISS 
crew and cargo transportation providers?

A4.  The information channels are open and at this time all aspects are 
satisfactory.

Q5.  The Appendix to your Prepared Statement is a summary of findings 
of an ISS Advisory Committee and ASAP review of the status of 
commercial logistics vehicles now under development. Those findings 
highlight concerns with respect to the developments for commercial 
cargo resupply services to the ISS. What plans do the two external 
bodies have for further investigation of the issues identified in the 
findings and what, if anything, needs to be addressed now in response 
to these issues?

A5. 
A7.  The ISS Advisory Committee (ISS AC) and the ASAP have continued to 
pursue the Comercial Cargo Vehicle concerns identified at their 9 
August 2011 Joint Meeting at the Johnson Space Center, Houston, TX.
    The ASAP conducted Panel follow-up visits at the SpaceX and Orbital 
Sciences facilities and the following is quoted from their report: `` . 
. . found positive signs of progress. SpaceX is communicating more 
openly with greater transparency. Its production facility has greatly 
matured; its energy and innovation are exciting and infectious. The 
visit to Orbital was very interesting. Orbital is a company that is 
both experienced and innovative. It has deep knowledge from having 
launched over 1,000 satellites and vehicles for both commercial 
entities and the government.''
    At the Johnson Space Center, the ISS AC continued to closely 
monitor the SpaceX-D flight preparation, and in particular its various 
Safety and Flight Readiness Reviews. ISS AC team members also observed 
on a daily basis the launch, rendezvous, capture and berthing maneuvers 
and operations. There were no observed deviations or exceptions to the 
established flight rules, required demonstration maneuvers, or 
requirements.
    As both the ISS AC and the ASAP have identified, of major concern 
is the budget. Schedule and resources inevitably precipitate safety. 
Both the ISS AC and the ASAP are well aware of the tenor of the times, 
and understand the shortfalls and deficits that our government faces; 
however, if America wants a solid space program, it must be a priority 
and must be paid for, and the funding committed must be effectively and 
efficiently managed. However, as I testified from NASA data, both 
companies were overly optimistic in both funding and schedule 
projections. Both entities are several years late from their original 
contracted flight dates and to date have exceeded their original 
contractor estimates by approximately a factor of three.

Q6.  In light of the recent Soyuz incident, how does the 2010 NASA 
Authorization Act provide direction for NASA and a government backup to 
service the ISS? What priority within NASA's human spaceflight 
activities would you ascribe to this backup effort?

A6.  The 2010 NASA Authorization Act does give direction for NASA to 
provide for the MPCV (Orion) and SLS to provide backup services in case 
the commercial cargo or commercial crew fails to meet their required 
schedules.
Responses by Vice Admiral Joseph W. Dyer, USN (Ret.),
Chairman, Aerospace Safety Advisory

Questions submitted by Chairman Steven M. Palazzo

Q1.  Specific to the recent Soyuz incidents, what is ASAP's opinion of 
the information that has been provided by Russia? Has the engineering 
analysis, safety and mission assurance information, and support from 
the Russian entities been sufficient to determine whether to resume 
crewed Soyuz flights? What other information or criteria must NASA have 
to gain enough confidence to resume flight?

A1.  The ASAP has found the information flowing to NASA from the 
Russians to be creditable and the transparency to be in harmony with 
the serious risk of de-crewing the International Space Station (ISS). 
While our insight into the safety and mission assurance work the 
Russians have performed is not first hand, we have closely monitored 
the information NASA has received and the process used to acquire that 
information. The members of the Russian State Committee (what the ASAP 
would call a Mishap Investigation Board) were very senior and had high 
technical credentials and experience.
    Russian actions reflected good practice, prudent judgment, and a 
risk-averse approach which mirrored typical U.S. practice. There was a 
detailed and significant effort to determine the root cause and 
recommendations for future mitigation. A parallel effort by NASA 
propulsion experts supported the work done and came to the same 
conclusion using U.S. tools, techniques, and equivalent approaches. 
Nothing can be perfectly certain, but we can say the work has been 
detailed, competent, complete, and carried out with expertise in the 
areas highly relevant to the failure.
    We note the constraints in dealing with a sovereign nation in a 
technology area typically subject to export control; however, we have 
been told that the Russians have been extremely open and 
straightforward in providing information. We do not know of any other 
data that is either needed or available to make the return-to-flight 
decision. We have noted the importance and success of the 
``relationship building'' accomplished by NASA and the Russians. We 
especially highlight the outstanding work done by NASA's Mr. William 
Gerstenmaier. We believe NASA has gained the insight and confidence 
necessary to resume the U.S. astronaut flights aboard Soyuz.

Q2.  From a safety and mission assurance perspective, what do you 
consider to be the ``lesson learned'' from the Progress accident? What 
did this accident and response from the Russians and U.S. space 
agencies tell you about the safety culture of the ISS program?

A2.  The information gleaned from the investigation into the Progress 
launch mishap indicated that a failure in quality during production was 
responsible for the mishap, rather than an inherent design deficiency. 
This mishap illustrates that even when utilizing a mature launch 
platform that has had over 700 successful launches, there are still 
risks, such as quality breaches, that must be acknowledged and planned 
for. Spaceflight is several orders of magnitude riskier than commercial 
aviation and the Progress mishap is factual evidence.
    NASA had recognized and planned for a possible interruption of 
scheduled Soyuz availability. From a safety perspective, there was no 
immediate impact on the crew due to the Progress failure; however, the 
Soyuz vehicles already docked at the ISS had a ``shelf life,'' and NASA 
recognized that crew would have to return on these vehicles before they 
exceeded their ``use-by'' date, regardless of whether or not new Soyuz 
arrived at the ISS. NASA behaved appropriately in bringing home three 
crewmembers and leaving only three on orbit when one Soyuz at ISS 
reached its shelf-life limit. This action was entirely consistent with 
an appropriate concern for crew safety. At the same time, the Russians 
were conducting a mishap investigation to determine if it would be 
possible to deliver another Soyuz to the ISS to prevent the need to 
bring the remaining three crewmembers home before the Soyuz on orbit 
reached its shelf-life limit. The information concerning the Progress 
mishap demonstrated to the ASAP that the Russians did a thorough and 
creditable investigation, and that their conclusions seemed reasonable.
    From a safety perspective, all ISS crew must have the capability to 
de-orbit. This means that for a full, six-member crew, two Soyuz 
vehicles must be present. In the current situation where only one Soyuz 
is at ISS, there is a substantial reduction in the useful work 
accomplished, thus negatively impacting the ability to accomplish the 
ISS mission as planned. Should the remaining Soyuz have to be brought 
home, it would mean that the ISS would be left with no crew on board 
and with a virtual cessation of all ISS productivity. While 
disappointing, this is a risk that has always been acknowledged and 
accepted by the U.S. and its partners when the Shuttle program ended 
and the Soyuz became the sole means of access to the ISS. (Though, it 
should be noted the Shuttle could not support long-duration 
``lifeboat'' support.) Despite the profound impact on accomplishing 
mission objectives, the ISS can be maintained in a safe condition 
remotely for an extended period of time.
    The current situation demonstrates that while mission capability 
has been significantly diminished, the safety of the crew has been 
preserved. Further, NASA had anticipated the potential for the 
eventualities that we are now experiencing, and the current crew safety 
level and mission capability is what was expected. NASA's and Russia's 
actions appear to be consistent with an appropriate concern for safety 
and a good safety culture.
    The ASAP notes that the third-stage failure of the Russian Progress 
Rocket highlights a number of known but underappreciated constraints to 
ongoing ISS operations. They include:

    <bullet>  The 200-day ``use-by'' requirement of the docked Soyuz. 
The delay in the planned Soyuz flights means that the capsule docked at 
the ISS is at risk of ``aging out'' before a replacement capsule can be 
transported there. If the Russians cannot safely launch a Soyuz mission 
prior to the expiration of the currently ISS docked capsule, there is 
risk the ISS will have to be de-crewed.

    <bullet>  No pre-planned, ready-to-execute process for de-orbiting 
the ISS.

    <bullet>  Implicit risk in not having a ``second source'' for crew 
transportation to and from the ISS.

    Another lesson learned from the Progress mishap is that no matter 
how long, admirable, and/or extensive the history of any device built 
by man, it is still vulnerable to the most simple of failure causes--a 
momentary carelessness or misstep by the people preparing the machine 
for use. We note that this is equally applicable to any group working 
with hardware that must be failure free. While the term ``zero 
defects'' may have gotten a poor reputation due to overuse, we are, in 
fact, dealing with hardware that truly must meet those criteria. Hence, 
constant vigilance, continuous efforts and oversight, and absolute 
adherence to best practices must be maintained.
    The best indication of a strong safety culture is not the incident 
itself, but the response to that incident. In all cases, the response 
was immediate, complete, and focused on maintaining the safety of the 
ISS crew. It was clearly demonstrated in every action and proposed 
action that the crew safety considerations were first priority.

Q3.  NASA is entering into an increasing number of Space Act Agreements 
and other non-contract relationships involving hundreds of millions of 
dollars of taxpayer money. Based on your experiences with this 
investigation or others, please describe the level of insight the ASAP 
has with NASA itself, with NASA's commercial crew partners using Space 
Act Agreements, and with NASA's international partners such as 
Roscosmos, ESA, or JAXA.

A3.  In accordance with ASAP's charter and mandate, our focus and 
strength is assessing NASA's safety-related processes, policies, and 
procedures and comparing them to those used by world-class 
organizations, both government and non-government. This includes 
identifying any areas where improvements are possible that could 
maximize the safety of the inherently risky space exploration 
undertaking. In accomplishing this task, the Panel receives deep and 
detailed insight into NASA's programs, processes, and people.
    ASAP has complete access to all NASA Centers and project/program 
managers. We also enjoy excellent support from NASA Headquarters 
leadership all the way up to the Administrator. We hold quarterly 
meetings at different Centers during which we meet with various program 
representatives, safety staff, and engineering staff to discuss issues. 
We provide written recommendations to the Administrator and receive 
formal responses from the relevant NASA personnel. More importantly, we 
have an excellent but more informal relationship with key members of 
the NASA staff and leadership through which we can exchange 
information, views, opinions, and seek information. We recently have 
expanded our relationship with the NASA Advisory Council (NAC) and have 
jointly chaired sessions on Commercial Crew with the ISS Advisory 
Committee. Our relationship with NASA provides a high degree of 
fidelity to our assessments. Historically, it has also afforded us 
significant insight into the operations of NASA's prime contractors 
since past contract vehicles provided for a high degree of government 
control and oversight.
    The Panel's ability to understand and assess the processes of other 
organizations and partners that NASA relies on for critical support is 
typically limited to an assessment of NASA's procedures and processes 
for dealing with these providers. Specifically, our insight into 
commercial crew partners under Space Act Agreements can vary depending 
upon the degree of those partners' openness and transparency. ASAP 
enjoys a good relationship with the current commercial crew partners. 
We have recently been briefed by the two principal partners, Orbital 
Sciences Corporation and SpaceX, and subsequently followed up with a 
site visit to each. In all these cases, a frank and open discussion 
concerning the safety aspects of their programs was discussed.
    Our insight into the processes used by our international partners 
is generally limited to an assessment of the procedures NASA uses to 
interface with these partners and is based upon information provided by 
NASA personnel. In all cases we have found this satisfactory.
    The Panel continues to emphasize the need for the development of 
clear, concise, and firm safety requirements to guide all providers on 
what design, process, and certification standards NASA expects. Clear 
communication of NASA's safety needs is a key to efficiently and safely 
interfacing with the variety of partners that are in NASA's future.

Questions submitted by Acting Ranking Member Jerry Costello

Q1.  In considering the future of the ISS servicing and resupply, to 
what extent do you believe NASA and the international partners have 
identified and addressed all safety issues? Are there any gaps and if 
so, what are they?

A1.  NASA and the international partners have done a very thorough job 
of identifying and addressing safety issues with respect to ISS 
servicing and resupply; howeve,r provisioning the ISS is not without 
risk. Some possibilities, such as huge meteorite damage, simultaneous 
failure of many life support systems, and unanticipated sickness among 
the crew are recognized, and their solution is not obvious nor could it 
be fully provided for within the limitations of today's technology. 
That said, NASA has done an excellent job of providing for crew safety 
and support. The cargo resupply situation is actually quite robust. 
Progress, despite a recent failure, has a very long and reliable 
service history. The European Space Agency and the Japanese cargo 
visiting vehicles have demonstrated their ability to take cargo to the 
ISS. U.S. commercial providers, SpaceX and Orbital Sciences, are on the 
verge of demonstrating equivalent capability. The supply support 
situation on board the ISS is such that currently, the crew can be 
sustained for a considerable period without further cargo flights, 
hence protecting them from potential program slips or delays.
    In terms of its ability to dock with the ISS, any cargo visiting 
vehicle qualification is governed by a set of requirements and a 
successful demonstration process. These requirements have been known to 
all potential providers for some time, and all have agreed to meet 
those requirements. These requirements are primarily to protect the ISS 
from an inadvertent collision or damage from an approaching vehicle. We 
have reviewed these requirements and the process for demonstrating that 
a new cargo visiting vehicle meets those requirements and find both 
robust and complete.
    There are gaps in the ``corners'' of the risk matrix that remain. 
Two examples are apparent: (1) an unscheduled and unplanned-for ISS de-
orbit; and (2) Micrometeorite and Orbital Debris (MMOD). Prior planning 
had assumed the Constellation Program's Crew Exploration Vehicle (CEV) 
would perform the ISS de-orbit burn. Since the CEV is not available, 
alternate methods must be found to provide an end-of-life (EOL) de-
orbit burn. Several methods have been discussed, but none have been 
agreed upon. MMOD damage remains the largest threat to the ISS. While 
provisions for and safeguards against MMOD are in place, the odds 
remain that over the ISS's 10-year life span, this damage will occur. 
Contingency planning for a rapid ISS depopulation needs to continue and 
become more robust. Given its size and mass, an uncontrolled ISS re-
entry would be a noteworthy event that must be appropriately planned 
for.

Q2.  NASA has a multi-decadal history of working with the Russians on 
cooperative human spaceflight activities. What aspects of the Russian-
NASA process for dealing with Soyuz mishaps, incidents, and anomalies 
are critical to be infused into NASA's partnerships with future non-
government ISS crew and cargo transportation providers?

A2.  As correctly noted, Russia and the United States have worked 
cooperatively for a sustained period of time on spaceflight activities 
despite sometimes different and competing objectives. This cooperative, 
but sometimes fragile, relationship has been necessary for multiple 
reasons, including mitigating the high cost of space operations and 
overcoming substantial technical challenges. Nevertheless, despite 
significant barriers such as ``sovereign national issues,'' technology 
transfer challenges, and working around classified programs for both 
parties, a successful collaboration has been possible through 
transparent communication, constructive feedback, and trust. The recent 
Progress mishap investigation is an excellent example of how both the 
Russian Federal Space Agency (Roscosmos) and NASA cooperatively have 
supported one another.
    As NASA transitions to a new partnership with commercial crew and 
cargo providers, it is reasonable to expect that different, but equally 
challenging problems will need to be overcome. Issues caused by using 
Space Act Agreements versus traditional contracting methods (or vice 
versa), proprietary concerns, or addressing issues caused by the 
competitiveness of the environment, certainly will challenge both 
organizations' management.
    Transparent communication, constructive feedback, professional 
trust, and flexibility will be necessary. There must be a clear focus 
on doing everything possible within the confines of performing the 
mission to assure the safety of the crew. The commercial partners must 
clearly demonstrate that focus, and NASA must insist upon it. It must 
be obvious to both parties that this objective is not open to 
compromise. Development of a long-standing, mutually trusting 
relationship is essential to any program's or partnership's safe and 
efficient organization. Not every issue can raise itself to the highest 
management decision level or, worse, contract disputes clauses. In that 
case, it is inevitable that costs will rise and schedules will be 
missed. The parties, while recognizing that their motivations can 
differ in part, must be willing to trust that their partner will not 
knowingly do something to damage the partnership or reduce the 
project's success. When issues arise, they need to be openly and 
thoroughly discussed. This situation took time with the Russians, 
beginning with the difficulties caused in part by ``Cold War'' thinking 
on both sides; however, as clearly demonstrated by the recent Progress 
incident, this is a thing of the past. Withholding information, hiding 
concerns, and keeping secrets all are clearly signs of trouble in a 
relationship designed for human transport to space. This must be worked 
on by both sides until an open and transparent relationship is 
established.

Q3.  The ASAP's 2010 Annual Report stated ``Safety can suffer in high-
risk, complex programs--or programs with new or unproven technology--
when operating in a fixed-price environment.The ASAP is not yet 
comfortable with the harmony between technical readiness and the 
anticipated fixed-price contracting approach for NASA's Commercial 
Space Transportation Program. A lack of compatibility between these 
elements can often increase risk as funding runs short and time runs 
out.'' What needs to happen to ease ASAP's concerns and to what extent 
is NASA taking such actions?

A3.  Several things can ease the ASAP's concerns regarding the 
programmatic and safety risk associated with developing a commercial 
space transportation system for NASA astronauts via a fixed price type 
contract:

    <bullet>  An independent and creditable cost estimate;

    <bullet>  A realistic schedule (assuming full funding provided);

    <bullet>  Sufficient resources to fund the undertaking with 
historically realistic management reserve;

    <bullet>  Design competition between at least two providers and not 
relying on a single source (assuming full funding provided); and

    <bullet>  Completion of NASA's safety design and certification 
requirements and process.

    Firm-fixed-price (FFP) contracting makes the tacit and stated 
assumption that the government knows precisely what it is buying, has a 
firm cost estimate, and knows both the financial and technical risk. On 
the provider's part, it assumes that he knows the requirements, has a 
firm grasp of the technology, and can control the costs. Few of these 
conditions appear to be present in the current Commercial Space 
Transportation Program environment. Hence, technical, financial and 
schedule risks are inevitable and must be dealt with.
    Technical risk represents perhaps the most controllable risk. NASA 
has undertaken to provide a set of requirements to all bidders. This 
lists the objectives which NASA must achieve as well as (if available) 
a known approach for achieving them. In addition, all of NASA's 
engineering standards are provided, e.g., safety factors on pressure 
vessels. Further, NASA has provided that should a provider feel that he 
has an alternate method of achieving the same ends, he can propose that 
and, if found to be sufficient by NASA, it will be approved ahead of 
proceeding with final design. While technological risk can never be 
fully eliminated, this approach is well proven for mitigating such risk 
to the extent possible
    Schedule risk is a more difficult risk to mitigate because, like 
cost, it tends to be a ``victim'' of whatever else goes wrong. However, 
the best approach to handling this risk is to develop an agreed-to IMP/
IMS (integrated management plan/integrated management schedule) which 
calls out specific, measureable events that are easily discernable by 
all parties so that progress is clearly measureable and evident. 
Technology maturity is one of the largest causes of schedule 
extensions. Mandating that TRL levels be in the 6-7 range for all 
needed systems wherever possible is a key to mitigating that risk. More 
to the point, concentrating management and engineering attention to 
those areas where such technological maturity cannot be found is a key 
way to prevent technology ``surprises.'' When these occur, especially 
late in the development schedule, their impact is enormous. This is an 
area where ``taking a chance'' that something will work is clearly an 
enemy of safety.
    Financial risk is, without a doubt, the most contentious risk 
category, from both the funder's perspective and the performer's 
perspective. The tendency to ``promise beyond ability'' and to ``expect 
beyond capability'' is strong in our program culture. This is why the 
ASAP singled out this risk for special mention. Once set in a FFP 
contract, the pressure to hold cost down at the expense of much else is 
very high. This is the environment where we have seen safety, 
reliability, and maintainability sacrificed again and again in programs 
of all types.
    It is the highest priority and absolutely essential that a 
competent, complete, and accurate cost estimate for this program be 
established. Non-affiliated or non-advocate resources should be 
employed to assure that no unsubstantiated optimism or pessimism is 
included in the estimate. This baseline then must be used for 
establishing the most likely total program cost. Then, the resources to 
accomplish this program must be provided. No matter how ``bitter the 
pill'' when the estimate is available, the resources must be found or 
the program should not be attempted. That is not to say these all have 
to come from NASA. Given the commercial nature of this effort, it is 
reasonable that some investment should come from the private sector; 
however, it must be remembered that the source of funds does NOT affect 
the requirement for funds. The total cost will remain the same. An 
accurate cost estimate and funds to cover that estimate will go a long 
way to resolving the ASAP's concerns in this area. NASA's effort to 
provide an adequate program cost estimate needs to be considerably 
increased. It is inadequate at this time.

Q4.  Have ASAP members discussed what type of information the panel 
will need to assess the safety of future commercial crew transportation 
systems? What are the general categories of information and do they 
differ when the systems are being demonstrated and when they become 
operational?

A4.  The Panel has discussed the types of information, along with 
suggested timing, that are needed to seek additional insight into the 
Commercial Crew effort. In addition to information gained via questions 
and answers at briefings, the panel has discussed potential future 
scenarios in order to anticipate needs. Since there is some overlap 
between Commercial Cargo and Commercial Crew, the Panel has been active 
in visiting both Commercial Cargo vendors, and will continue its visits 
to Commercial Crew vendors in the upcoming calendar year.
    General categories of information include status briefs on 
workforce, standards, risk management, hazards analyses, testing 
protocols, schedule commitments and the condition of the physical 
assets. The type of information does not differ materially from the 
information needed to assess the safety of any human spaceflight 
program, including the type of information that was provided during 
Shuttle. NASA has set out technical requirements and they are based on 
the experience of the only U.S. entity that has safely put humans into 
space--a fact that should be remembered. The next step is to develop 
the validation/verification matrix which outlines how each provider 
will assure that the requirements have been met. Then, oversight into 
the manufacture/assembly/preparation of the vehicle has to be provided 
to assure that it has been built/assembled/operated in accordance with 
the agreed-to requirements. Subsequently, any and all re-use materials 
or components have to be refurbished back to their original 
specifications. This process is very similar to the process utilized 
today by the DoD and FAA in the design, production, maintenance, and 
operation of air vehicles of all sorts. This is the very process that 
we all put our faith, indeed our lives, into every time we buy an 
airline ticket. Assurance information is thus needed to make certain 
that the provider: (a) designs to meet the requirement; (b) validates 
the design in accordance with the validation matrix; (c) builds it like 
they designed it; (d) operates it within the agreed operating envelope 
such that all limits are within the capabilities of the design; and (e) 
maintains it such that all components are repaired or replaced such 
that no design degradation takes place. When operations commence, NASA 
and the Panel will be able to review actual results and performance 
outcomes.
    Lastly, the Panel has highlighted the potential for cultural 
differences between NASA and its Commercial Crew developers. For 
success, it will be incumbent on all parties to be mindful about open 
and clear communications.

             Appendix 2: Additional Material for the Record


  Summary of Findings of the ISS Advisory Committee and the Aerospace 
                         Safety Advisory Panel

                               Appendix A

                          Summary of Findings

                ISS AC--ASPA Review of SpaceX ``Dragon''

                and Orbital ``Cygnus'' Logistic Vehicles

                        9 August 2011, NASA--JSC

    On August 9, 2011, at the request of the Associate Administrator 
for Space Flight Operations Mission Directorate, members from the NASA 
ISS AC and the ASAP met jointly in a fact-finding session at the NASA 
Johnson Space Center (JSC), Houston, Texas, to review the status of the 
two Commercial Resupply Services (CRS) contractors for the ISS--Orbital 
Sciences Corporation (Orbital) and Space Exploration Technologies 
Corporation (SpaceX). The focus of the working groups from the ISS AC 
and the ASAP (herinafter referred to as the ``Review Team'') was to 
review the status of the SpaceX ``Dragon'' and the Orbital ``Cygnus'' 
logistics vehicles. The Team's review was limited to only one day, and 
therefore should not be considered thorough or complete.
    Both SpaceX and Orbital launch schedules (respectively November 
2011 and February 2012) are very success oriented, but as a result of 
prepositioned spares and consumables, NASA is in a position to absorb 
up to a year's delay in either or both logistics delivery schedule(s). 
The Review Team strongly supports the ISS Program Office (ISSPO) plans 
to keep contingency options in place in the event of extended CRS 
delays. With current manifest planning, six-crew operations aboard the 
ISS cannot be logistically sustained beyond January 2013 without CRS.
    A number of items attracted concern and comments from the Review 
Team.

SpaceX Agressive Mission Planning

    Combining the SpaceX C2/C3 mission with two Orbcom launches appears 
to be very aggressive mission planning. At the time of this review, the 
ISSPO had not approved this mission, and was carefully considering all 
aspects. In SpaceX's presentation, one of the comments that SpaceX 
repeatedly made was the need to ``keep it simple'' for mission success; 
however, by introducing the additional payload launch, complexity would 
be added. At the time of this review, NASA had not had time to review 
this proposal. If the decision is to allow this additional launch 
requirement, it seems to the Review Team that it is added complexity 
and has the potential to compromise focus on the demonstration.
    The SpaceX development and test schedule seems highly compressed. 
To go from System Readiness Review (SRR) to first flight in three 
months--with most of the systems engineering reviews taking place in 
one month--is not consistent with good practice and experience. As a 
general observation, both groups did address their respective safety 
efforts. While the time allotted in the discussions was not sufficient 
for the group to unequivocally endorse the safety efforts, the Review 
Team did not find any indications of significant systemic failings of 
their safety efforts.

Safety and Mission Success

    During discussions with ISSPO representatives, the comment that 
``NASA was responsible for Safety, and Mission Success was the 
responsibility of the Contractors'' raised concern with some of the 
Review Team members. Realizing different guidelines and 
responsibilities exist for the COTS Space Act Agreement, the Review 
Team has concern about the perceived responsibility in the event of a 
catastrophic failure. The ISSPO acknowledges this concern and is 
exercising insight and oversight to the extent possible under the Space 
Act Agreement and the Contract to make sure that it is well defined and 
covered. Regarding the question of allocation of responsibility for 
mission success for the early flights, it is very likely that NASA 
cannot escape being seen (at least partially) as responsible for 
mission success. This is a concern, and while it cannot likely be 
easily settled, it seemed somewhat casual in the current discussion. 
Written ground rules and assumptions need to be well documented. NASA 
needs to ensure there is a clear, well laid-out understanding of the 
responsibilities.

Different Approaches

    There is a major difference in the design and verification 
approaches being taken by SpaceX and Orbital. SpaceX builds their 
computers up in house using commercial-grade parts, while Orbital 
purchases a computer using milspec, radiation-hardened parts. SpaceX 
has a one-size large thruster that is used for all operations (fine 
maneuvering is accomplished by millisecond pulsing of this large 
thruster), while Orbital has a more traditional approach with a large 
thruster for spacecraft transfer and small (7 lb.) thrusters for fine 
maneuvering. SpaceX builds the majority of their componentns in house, 
while Orbital procures a large number of their components from second 
sources. Both approaches, while different, can be made to work with a 
performance-based contract.

Flight Rules

    There was concern voiced that there was no formal document signed 
by all parties that defines who has go-no go authority during all 
phases of flight. While the Review Team was sure that those discussions 
have taken place, this should be formally documented, with clarity of 
language that all parties have agreed to and signed. There was Review 
Team consensus on this issue.

Software

    During the Orbital presentation, one issue that was brought up was 
the frequency response of one of the contractors. While the explanation 
was good, the 2 Hz cycle being used leaves open the question about 
latency in the Operational Flight Program (OFP) resulting in a ``PIO'' 
situation. The SpaceX Software presentation was unsettling to the 
Review Team. There was no Capability Maturity Model Integration (CMM) 
accredited capability or process, and the software chief said he didn't 
worry about errors because ``there were no mistakes in the software.'' 
In the Review Team's experience, this is unlikely. Another comment was 
``we don't set requirements, we just do coding.'' The very essential 
part of software development is understanding that of requirements so 
as to identify missed requirements, unexplained actions, and possible 
unsafe conditions.

Crew Hazards

    NASA systems personnel working with the two companies reassured the 
board that proper flight rules and hazard mitigation would be in place 
to include crew precautions for use of eye protection and proper use of 
telephoto lenses to prevent exposure to LASER and other radiation 
hazards. Off-gassing requirements are similar to those of other 
vehicles such as the Multi-Purpose Logistics Module (MPLM), the 
Automated Transfer Vehicle (ATV), and the H-II Transfer Vehicle (HTV).

MMOD Shielding

    The MMOD requirements and environmental models for commercial 
resupply vehicles were developed several years ago to provide 
consistent MMOD protection for all ISS resupply vehicles (ATV, HTV, 
SpaceX Dragon, and Orbital Cygnus). Damage to the Thermal Protection 
System (TPS) of SpaceX Dragon that causes loss of vehicle during entry 
or damage causing vehicle functional failure of either the SpaceX 
Dragon or Orbital Cygnus vehicle is not included.

Engine Failure and Anomalies

    Although not the focus of this review, propulsion is critical to 
meeting the launch schedules. In the case of Orbital, there was a 
detailed discussion on the failure and the corrective actions. In case 
of SpaceX's early engine shutdown, the Team didn't see that kind of 
detailed discussion. Only in response to a direct question (and after 
the SpaceX presentation was completed) was there acknowledgement that 
``We had an engine shut down early on the previous launch, but that's 
OK.'' There was no explanation or root cause analysis or corrective 
action on this particular anomaly. This statement is troubling, i.e., 
not recognizing that premature engine shutdown is a significant event. 
Orbital uses a rocket engine that is from the old Russian N1 rocket. It 
has experienced a recent firing failure at Stennis due to build-up of 
stress fractures, and it has not had normal nondestructive inspection 
(NDI) or testing (it is now undergoing inspection and testing).

Culture Observations

    Experience has shown that an organization's culture can and does 
affect the decision-making processes and the level of risk the firm is 
ready to assume. A number of positives were noted during the briefings. 
Identified differences in cultures can be a benefit, if the differences 
are recognized and used in a positive manner. SpaceX and NASA are aware 
that their cultures are vastly different. Orbital and NASA are aware 
that their cultures are somewhat different from each other.
    There appears to be good communication between all three 
organizations on technical detail. NASA has been studying, measuring, 
and working on opening up its culture and has made progress. SpaceX has 
an entrepreneurial mindset which is emphasized and encouraged 
throughout the entire design team. While this is a proven success 
process in many business fields, given the complexities of building and 
operating spacecraft, there is a concern that too much streamlining of 
accepted ``best practices'' without an associated experience base could 
lead to unexpected challenges to mission success. SpaceX has addressed 
this issue by ensuring that some key personnel with NASA backgrounds 
are in place and charged with monitoring this tendency. There are 
several items of concern with respect to safety culture. Both 
commercial cargo providers could pay more attention to the cultural 
differences in a more formal manner. NASA Commercial Cargo personnel 
who interface with the contractors/partners have an excellent 
opportunity to be alert to cultural issues that could harm the outcomes 
that all parties seek, and it is not clear that they are effectively 
trained to recognize their role and to execute against it. 
Unfortunately, the language contained in the Space Act Agreements is so 
obscure as to what is and is not allowed, it has blurred NASA's current 
oversight role. It will be beneficial to the program for executives of 
all three organizations to continue to recognize their roles in 
establishing a good ``tone at the top.''

General Observations

    The importance of NASA as the keeper of the broad body of knowledge 
on space flight, and the importance of their role in shepherding 
commercial space forward cannot be overemphasized. This is working 
well, but the Review Team strongly encouraged aggressive transparency 
between the companies and NASA Headquarters and NASA centers with 
regard to the issues and the challenges, calling upon that body of 
knowledge to move forward. Also, there is the importance of 
transparency internal to NASA.
    With regard to Orbital and SpaceX, Orbital generates the confidence 
of a company that has ``been there, done that.'' They understand best 
practices. The also have the humility born of experience; they 
understand how hard this is. SpaceX is entrepreneurial; their thinking 
is a fresh approach. They challenge conventional wisdom and have the 
potential to deliver at lower cost with innovations; they are 
aggressive by nature. However, their comments with regard to software 
were very disturbing and presented a lack of insight and sophistication 
on what can go wrong in this business. Schedule compression is also a 
concern.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
